<html>
<title> - THE WAR IN CHECHNYA: RUSSIA'S CONDUCT, THE HUMANITARIAN CRISIS, AND UNITED STATES POLICY</title>
<body><pre>[Senate Hearing 106-500]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-500
 
  THE WAR IN CHECHNYA: RUSSIA'S CONDUCT, THE HUMANITARIAN CRISIS, AND 
                          UNITED STATES POLICY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED SIXTH CONGRESS



                             SECOND SESSION



                               __________

                             MARCH 1, 2000

                               __________




       Printed for the use of the Committee on Foreign Relations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
63-578 CC                   WASHINGTON : 2000






                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Abuzayd, Karen Konig, Regional Representative to the U.S. and the 
  Caribbean, United Nations High Commissioner for Refugees.......     5
    Prepared statement...........................................     8
Bouckaert, Peter, Investigator, Human Rights Watch...............    11
Dine, Thomas, President, Radio Free Europe/Radio Liberty.........    16
    Prepared statement...........................................    21

                                Appendix

An Additional Statement by Senator Biden.........................    41
Senate Resolution 261............................................    42
Senate Resolution 262............................................    47
Maps.............................................................    51

                                 (iii)




  THE WAR IN CHECHNYA: RUSSIA'S CONDUCT, THE HUMANITARIAN CRISIS, AND 
                         UNITED STATES' POLICY

                              ----------                              


                        Wednesday, March 1, 2000

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:45 a.m., in 
Room SD-419, Dirksen Senate Office Building, the Hon. Jesse 
Helms, chairman of the committee, presiding.
    Present: Senators Helms, Wellstone, Feingold, Kerry, and 
Biden
    The Chairman. I am going to bring the Committee to order. 
All Committees are meeting this morning, and it is sort of a 
round robin. Senators who intend to be here are not here yet, 
but they will be here. And, this is the way it is in the early 
part of the year, when everybody is trying to get legislation 
going, including us.
    Well, we certainly have a distinguished panel this morning. 
Mr. Thomas Dine, whom we all know, president of Radio Free 
Europe/Radio Liberty; and Mr. Peter--
    Mr. Bouckaert. Bouckaert.
    The Chairman.--Bouckaert, an investigator for the Human 
Rights Watch, Washington D.C.; and here we go with Ms.--Ms. 
Karen Konig AbuZayd.
    Ms. AbuZayd. AbuZayd.
    The Chairman. Well, I--I was not even close, was I?
    Well, we are glad to have all three of you. You are very 
prominent in your fields and uniquely qualified to discuss the 
war in Chechnya, the reprehensible conduct of the Russian 
government in that conflict and the implications of this 
conflict for the United States.
    Now, then, Tom Dine, as I mentioned earlier is president of 
Radio Free/Liberty Radio Europe, which has a substantial 
presence in Russia. And Mr. Dine has worked tirelessly in 
recent weeks to ensure the safety and welfare of the 
distinguished Radio Free Europe/Radio Liberty reporter, Andrei 
Babitsky. I sure appreciate your coming.
    And Peter--I am not--I am going to leave your surname 
alone. I--we are--we are good friends, so you first-name me, 
and I will first-name you, and we will both come out ahead.
    [Laughter.]
    The Chairman. Peter, who is with Human Rights Watch, just 
arrived from Russia, where for the past three months he has 
been investigating the atrocities committed in the ongoing war 
in Chechnya. We welcome you, sir.
    And, we are pleased to have this delightful lady, who puts 
up with my mangling her surname, AbuZayd. I did better that 
time.
    Ms. AbuZayd. That is good.
    The Chairman. Good. She is--and she is the regional 
representative to the United States and the Caribbean of the 
United Nations High Commissioner for Refugees. The UNHCR has 
also been examining the tragic state of human rights in 
Chechnya. And, we welcome you.
    Now, before Mr. Dine begins his testimony, he has a brief 
five-minute film on the Russian assault on Grozny, a horrifying 
portrait of Russia's brutality against the inhabitants of that 
city.
    And I believe it is important for this Committee to view 
this film. I wish that the world could see it, because it 
brings home for us the enormous human suffering caused by 
Russia's brutal campaign in Chechnya, a war that most of the 
world seems perfectly content to ignore.
    Now, let us just for the record say that more than 100,000 
Chechen were killed in the first Russo-Chechnya war of 1994 to 
1996--100,000 out of a population of fewer than 1 million.
    Today the Kremlin is trying to undo its military defeat of 
four years ago with indiscriminate use of force that, again, 
has left countless thousands of innocent men, women and 
children dead, and hundreds of thousands homeless.
    The capital city of Chechnya is Grozny. And it has been 
subjected to a destruction unseen in Europe since World War II. 
A photo of that city has been blown up to show precisely what I 
mean. And indeed, what has been done to Grozny surpasses even 
the havoc that Milosevic has wrought upon the towns and cities 
of both Bosnia and Kosova.
    At a time when Western governments have turned a blind eye 
to this conflict, the ability of journalists to report 
objectively on this war and its horrors has become all the more 
important.
    The Russian acting president, Vladimir Putin, appears to 
recognize this only too well. Freedom of the press is another 
victim of his war.
    Nowhere has this war against the press been more blatant 
than in the case of Andrei Babitsky. For his unfavorable 
accounts of the Russian military's conduct, he was detained by 
Russian authorities, and then he disappeared. Today, I am 
relieved that he is alive and now with his family.
    Our ability to help Russia evolve into a stable democracy 
cannot be effective if we ignore such systematic repression of 
the press and the brutal campaign of terror Russia has 
conducted.
    Nor is it helpful for Western governments to portray this 
as a legitimate battle against terrorists, and certainly not 
for the President of the United States to call this a war--and 
he used the word ``liberation,'' in the recent essay for Time 
Magazine. This premise was not only extremely misleading. It is 
morally flawed and short-sighted.
    And I am proud that while the rest of the world has sought 
to ignore or pretend that the war in Chechnya is legitimate, 
Congress has stepped forward and condemned Russia's brutality 
there.
    Now, let us look at the film.
    [Video.]
    The Chairman. Well, that makes me even prouder that this 
past Thursday, the Senate passed unanimously Resolution 261 
condemning the detainment of Mr. Babitsky and called for his 
safe return and demands an end to the systematic harassment of 
the press in Russia.
    The Senate also passed Resolution 262, authored by Senator 
Wellstone, to repudiate the notion that the Chechen people are 
terrorists and underscore their right to defend themselves 
against the indiscriminate use of force. It also urges 
President Clinton to promote negotiations between the Kremlin 
and the Chechen government.
    Now, it is no small coincidence that the day after these 
two resolutions were passed by unanimous consent, the Kremlin 
suddenly found Andrei Babitsky. I do not know where he was 
hiding, but they found him.
    Now, imagine what could have been accomplished if the 
administration had addressed this conflict as more than a 
rhetorical priority in our relationship with Russia.
    Now, Senator Biden will make his opening statement when he 
gets here, but the Senator from--from the distinguished State 
of Minnesota has asked for a couple of minutes to make a 
statement too.
    Senator Wellstone. Thank you, Mr. Chairman. I will be very 
brief, and I just want to thank each of you for being here 
today to testify.
    I want to say I am not surprised to see Senator Feingold 
here, who has been a consistent strong voice for human rights. 
And I would like to especially thank the human rights community 
for their concern.
    In that film, Mr. Chairman, I noticed that one of the women 
said, ``What is the world doing?'' And that just sent chills 
down my spine. I would like to thank you for leadership on 
this.
    The only reason I asked for one minute is that I was 
disappointed because--although we did pass these resolutions, 
we did this work together, and I know it has been important to 
people in Chechnya, and others have taken this resolution and 
it has been circulated--I do not feel like there was as much of 
a focus as I think there needs to be.
    And I want to very briefly just repeat some of this 
resolution, and note especially for the Administration that I 
am disappointed, very disappointed, that we do not have a 
panelist here representing the Administration.
    I know we asked them to come. My understanding is we will 
get somebody in a separate hearing, but frankly my view as a 
Senator is there ought to be somebody here from the 
administration at this very, very important hearing.
    I just want to mention a couple of aspects of the 
resolution referred to by the Chairman, S. Res. 262. It called 
on the government of the Russian Federation to ``allow into and 
around Chechnya international missions to monitor and report on 
the situation there and to investigate alleged atrocities and 
war crimes; allow international humanitarian agencies immediate 
full and unimpeded access to Chechen civilians, including those 
in refugee, detention, and so called `filtration camps' and any 
other facility where the citizens of Chechnya are detained; and 
investigate fully the atrocities committed in Chechnya . . . 
and initiate prosecutions against those officers and soldiers 
accused.''
    It called on our President to ``promote peace negotiations 
between the government of the Russian Federation and the 
leadership of the Chechen government, including President Aslan 
Maskhadov, through third-party mediation by the OSCE, United 
Nations or other appropriate parties; endorse the call of the 
United Nations High Commissioner for Human Rights for an 
investigation of alleged war crimes by the Russian military in 
Chechnya; and . . . take tangible steps to demonstrate to the 
Government of the Russian Federation that the United States 
strongly condemns its brutal conduct in Chechnya and its 
unwillingness to find a just political solution . . ..
    Every day the reports are horrifying. And the reason that I 
mention this is this resolution for--for journalists and others 
that were here, was passed unanimously by the--the Senate, in 
part because of your help.
    This was meant to be a strong message. And I would suggest, 
Mr. Chairman, that those of us here--Senator Biden and others--
may want, next week, to reword this and put together yet 
another strong resolution, bring it to the floor of the Senate, 
and have some discussion on the floor of the Senate, because I 
think we must put a focus on this.
    I think we are going to have to speak up, Mr. Chairman, 
more and more and more so.
    Thank you.
    The Chairman. Russell, how about some words from you?
    Senator Feingold. Just very briefly. And--and the most 
important thing is to thank you, Mr. Chairman, and thank 
Senator Wellstone for the leadership on this.
    We have to speak out on these kinds of human rights 
violations wherever they occur in the world. And I believe this 
hearing is especially important because I fear that the United 
States government has accepted a dangerous assumption about the 
violence in Chechnya.
    I fear that the administration believes that in order to 
pursue a cooperative relationship with a formidable power like 
Russia, the United States somehow has to accept the terrible 
human costs of the Chechnya campaign.
    And I think that assumption is wrong. And I am sure the 
Chairman does as well. The assumption is wrong, because the 
lives of civilians cannot be bargained away in the pursuit of 
engagement. That is simply too high of a price to pay.
    And also it is just as important to say that the assumption 
offers a false promise. History has proven that there can be no 
lasting order without justice.
    I do share the Administration's desire to see a stable, 
prosperous, democratic Russia take shape. But that will never 
happen as long as grave human rights abuses like those 
perpetrated by the Russian military in Chechnya continue to be 
a part of Moscow's policy.
    It will never happen as long as the Russian government 
denies international rights groups and non-governmental 
organizations access to the terrible humanitarian catastrophe 
of a place like Chechnya. And it will never happen while 
independent journalists are muzzled and the Russian people are 
denied the truth.
    So what is being done by Russia, Mr. Chairman, in Chechnya 
is not a liberation struggle. It is not an acceptable or 
understandable response to domestic terrorism, as terrible 
terrorism is. It is abhorrent.
    And if we seek a mature post-Cold War relationship between 
the United States and Russia, one that aims at a stable and 
meaningful relationship, the United States has to speak out and 
condemn such practices at every opportunity as Senator 
Wellstone has said, including, I would add, within the 
international financial institutions.
    So I look forward to the hearing. And I, again, thank very 
much the Chairman and the Senator from Minnesota.
    The Chairman. I will say to my two colleagues that the 
witnesses and I have agreed that I can first-name them, because 
I have difficulty with pronunciation.
    And before the media gets too interested in that, I will 
remind them for a year after Kofi Annan became Secretary 
General of the United Nations, they were still saying ``Kofi 
Annon.'' Right?
    [Laughter.]
    The Chairman. Karen, you may proceed, ma'am.

 STATEMENT OF MS. KAREN KONIG ABUZAYD, REGIONAL REPRESENTATIVE 
TO THE U.S. AND THE CARIBBEAN, UNITED NATIONS HIGH COMMISSIONER 
                          FOR REFUGEES

    Ms. AbuZayd. Thank you. Thank you, Mr. Chairman and 
Senators.
    I am going to concentrate on the humanitarian activities in 
the north Caucasus, particularly in Ingushetia. This is where 
UNHCR works with a number of U.N. and voluntary agencies to 
provide assistance and protection to Chechens outside Chechnya, 
mainly in Ingushetia, where we have about 200,000 persons, but 
also in Dagestan and in Georgia.
    Seventy percent of these displaced persons and refugees are 
in host families. Twenty percent are spontaneously settled, and 
only ten percent in camps set up by the international 
community. Around 100,000 of those displaced have returned to 
Chechnya, though many are shuttling back and forth.
    At this time, about twice as many people are leaving than 
those returning each week. And only a quarter of those who go 
back into Chechnya are remaining there for good.
    On the assistance side, emergency needs are being met 
outside Chechnya, but there are sectoral and locational gaps. 
Our movements are escorted for security reasons, and at our own 
insistence, by Russian security forces.
    Since mid-September UNHCR has delivered 5,000 tons of aid 
worth $4 million on 42 convoys to the North Caucasus, 34 to 
Ingushetia; 5 to Dagestan, 1 to North Oseetia, 1 to Karachaevo-
Cherkessia, and 1 yesterday finally, 29 February, to Grozny 
itself.
    Yesterday's ten-truck convoy provided and escorted by our 
Russian implementing partner, EMERCOM, arrived in the center of 
Grozny at midday and offloaded for distribution today through 
local hospitals, soup kitchens and bakeries.
    Three UNHCR local staff, Chechens, accompanied the convoy 
and will monitor the distribution of the 45 metric tons of 
food, as well as plastic sheeting, soap, mattresses and 
blankets.
    The convoy is something of a pilot project to allow us to 
evaluate security and logistic possibilities for a future aid 
operation. We also hope to get a better idea of how many 
civilians remain in Grozny, estimated now at between 10,000 and 
20,000.
    We did have a first report back from our monitors who are 
having to use the telephone of the Russian general who runs the 
EMERCOM office in Grozny, and this is as much as he has been 
able to tell us so far. When we get more information, we will 
provide it to you as we are updated.
    In terms of our protection concerns, our immediate concerns 
come from the accounts from displaced persons who report 
widespread displacement from the villages in the Argun Valley, 
the site, we believe, of continuing military activities.
    Some reports say that thousands of villagers are fleeing in 
advance of the military offensive as it moves southward. 
Accounts describe direct shelling of some villages and intense 
fighting around others. There are maps attached to my testimony 
that you can see.
    According to the Ingush Migration Service, some 1,800 new 
internally displaced people arrived in Ingushetia last week 
from Chechnya, and 763 returned for good.
    Most of the new arrivals are women and children from some 
of the most heavily destroyed locations in Chechnya. Many say 
they would like to return home, but are afraid to do so, 
because of lawlessness and reports that all males are being 
temporarily detained for identification purposes.
    The internally displaced persons told UNHCR monitors that 
in the Argun district, all males aged 15 and older are detained 
by the local police, the Ministry of Interior Affairs, for 
purposes of establishing their identity. And they said that 
some of these men remain in detention.
    Additional protection concerns outside Chechnya for us are 
the lack of legal status and necessary documentation for IDPs 
to access state provided assistance and to be able to move 
about freely; and the continuing fear that in some instances, 
IDPs are being forced to return to Chechnya against their will. 
We have been working on this problem, and we think we may have 
it solved.
    Persuasion to leave Ingushetia is accomplished sometimes by 
refusal to register new arrivals, particularly those from the 
Russian-controlled areas of Chechnya, for assistance, by de-
registering them, or by cutting the levels of assistance 
provided to them.
    Reports by human rights organizations--which we will hear 
more later--and from journalists about atrocities and gross 
human rights violations in Chechnya, both in the detention 
camps set up by Russian troops and in the towns to which 
Chechens have tried to return, appear to be corroborated, at 
least in part, by the daily interviews carried out by UNHCR 
monitors. We are putting some mechanisms in place to check out 
the reports more systematically.
    An officer devoted entirely to what we call protection 
issues was sent to the area last week and is in the process of 
training 18 protection monitors to be able to tell us what is 
really happening.
    UNHCR, however, as in similar conflict situations has 
certain reporting constraints in order to preserve its 
impartial presence, protect the IDPs, our staff and the 
assistance program itself.
    We deal with this by sharing verified reports with those 
agencies whose mandated task it is to monitor human rights 
conditions.
    The appointment of the former head of the Federal Migration 
service to investigate alleged human rights abuses in Chechnya 
and the opening up of a passport service in Chechnya, which has 
not been available for the past four years, has given rise to 
some hope that the situation may begin to improve shortly.
    In terms of the future of the operation, following an 
inter-agency assessment mission to Ingushetia and just inside 
the northern Russian-controlled Chechnya, in the first week of 
February, which found conditions in the established camps 
reasonable, but much below standard in the spontaneous 
settlements and only slightly better in the host families, an 
appeal for funds should be issued later today or tomorrow 
covering the period through 30 June.
    Continuing emphasis will be placed on water and sanitation 
with the intention to upgrade and rehabilitate a failing 
Ingushetia infrastructure.
    Much more emphasis will be placed on shelter, with the main 
aim being to repair and improve the host family living 
compounds. In addition, some food assistance will be required 
for the host families.
    For the first inter-agency appeal the first part of this 
year was for $16.2 million and we raised a total of $14.1 
million from the United States, Canada, European governments, 
Japan and the Czech Republic.
    Particularly since the fall of Grozny, since when the 
Russian claim to control the major part of Chechnya, we have 
been asked whether we have an intention to function inside 
Chechnya.
    Our opinion is that the situation is not safe yet for the 
majority of Chechens to return and we would, therefore, not 
encourage them to return at this stage. The recent human rights 
reports make us even more cautious.
    The second concern is that we cannot yet mount an 
assistance operation of significant scale, since we cannot send 
international staff into Chechnya yet, even on mission, to 
ensure proper control of the implementation of such an 
operation--due to the omnipresent and undiminished security 
risks, not only as a result of the war, but also from 
criminals.
    For the time being, UNHCR and its partners are setting up a 
system to provide assistance in Ingushetia for those who elect 
to return. And we have developed plans to run our convoys 
across the borders into Chechnya, depending upon the feedback 
in the coming days from yesterday's first convoy.
    The U.N. Office of the Coordination for Humanitarian 
Affairs is also sending a mission to Moscow this afternoon to 
enter into discussions about setting up a possible assistance 
operation in Chechnya.
    I thank you for your time.
    [The prepared statement of Ms. AbuZayd follows:]

               Prepared Statement of Karen Konig AbuZayd

             humanitarian activities in the north caucasus
Introduction
    UNHCR works with a number of UN and voluntary agencies (OCHA, UNDP, 
UNICEF, WFP, WHO, UNFPA, IOM, DRC, ACF, NRC, MSF, Salvation Army, 
Islamic Relief, World Vision, CARE) to provide assistance and 
protection to Chechens outside Chechnya, mainly in Ingushetia 
(200,000), but also in Dagestan (12,000) and Georgia (5,000). Seventy 
per cent of these displaced persons and refugees are in host families, 
while 20% are spontaneously settled and only 10% in camps set up by the 
international community. Around 100,000 of those displaced have 
returned to Chechnya, though many are shuttling back and forth. At this 
time, about twice as many people are leaving than those returning each 
week, but only a quarter of those going back appear to be remaining in 
Chechnya.
Assistance
    Emergency needs are being met outside Chechnya, but there are 
sectoral and locational gaps. Our movements are escorted, for security 
reasons and at our own insistence, by Russian security forces. Since 
mid-September, UNHCR has delivered 5,000 tons of aid worth $4 million 
on 42 convoys to the North Caucasus, including 34 to Ingushetia, five 
to Dagestan, one to North Ossetia, one to Karachaevo-Cherkessia, and 
one yesterday, 29 February, to Grozny. Yesterday's 10 truck convoy, 
provided and escorted by our Russian implementing partner, Emercom, 
arrived in the center of Grozny at midday and offloaded for 
distribution today through local hospitals, soup kitchens and bakeries. 
Three UNHCR local staff accompanied the convoy and will monitor the 
distribution of the 45 metric tons of food (flour, millet, peas, sugar, 
barley), as well as 900 pieces of plastic sheeting, 20,000 bars of 
soap, 230 mattresses and 1300 blankets.
    The convoy is something of a pilot project to allow us to evaluate 
security and logistic possibilities for a future aid operation. We also 
hope to get a better idea of how many civilians remain in Grozny, 
estimated now at between 10-20,000. Some of this information should be 
available later today, at which time we shall share our updated news.
Protection concerns
    Our immediate protection concerns come from accounts from displaced 
persons who report widespread displacement from villages in the Argun 
Valley, the site of continuing military activities. Some reports say 
thousands of villagers are fleeing in advance of the military offensive 
as it moves southward. Accounts describe direct shelling of some 
villages (Shatoy and Bolshie) and intense fighting around others 
(ItumKali). (See the maps beginning on page 51.)
    According to the Ingush Migration Service, some 1,800 new 
internally displaced people arrived in Ingushetia last week from 
Chechnya and 763 returned for good. Many of the new arrivals are women 
and children from some of the most heavily destroyed locations in 
Chechnya, including Katar-Yurt and Khikhichu. Many say they would like 
to return home, but are afraid to do so because of lawlessness and 
reports that all males are being temporarily detained for 
identification purposes. IDPs told UNHCR monitors that in the Argun 
district, all males aged 15 and older are detained by the local police 
(the Ministry of Interior Affairs) for purposes of establishing their 
identity. The IDPs said some of these men remain in detention.
    Additional protection concerns outside Chechnya are the lack of 
legal status and necessary documentation for IDPs to access state-
provided assistance and to be able to move about freely; and the 
continuing fear that in some instances, IDPs are being forced to return 
to Chechnya against their will. ``Persuasion'' to leave Ingushetia is 
accomplished sometimes by refusal to register new arrivals 
(particularly from the Russian-controlled areas of Chechnya) for 
assistance, by de-registering them, or by cutting the levels of 
assistance provided to them. (We also are monitoring the situation of 
around 150,000 IDPs from Chechnya--the majority of whom are non-ethnic 
Chechens--displaced to non-contiguous provinces, since, although 
``recognized,'' they are mostly unable to register and therefore have 
consequent difficulties such as entering their children in school.)
    Reports by human rights organizations and from journalists about 
atrocities and gross human rights violations in Chechnya--both in the 
detention camps set up by Russian troops and in the towns to which 
Chechens have tried to return--appear to be corroborated at least in 
part by many of the daily interviews carried out by UNHCR monitors. We 
are putting some mechanisms in place to check out the reports more 
systematically. An officer devoted entirely to protection issues was 
sent to the area last week. UNHCR, as in similar conflict situations, 
has certain reporting constraints, in order to preserve its impartial 
presence and protect the TOPs, staff and the assistance program itself. 
We deal with this by sharing verified reports with those agencies whose 
mandated task it is to monitor human rights conditions.
    The appointment of Mr. Kalamanov, the former head of the Federal 
Migration Service, to investigate alleged human rights abuses in 
Chechnya, and the opening of a passport service in Chechnya (none 
having been available for the past four years) has given rise to some 
hope that the situation may begin to improve shortly.
Future of the operation
    Following an inter-agency assessment mission to Ingushetia (and 
just inside northern, Russian-controlled Chechnya) in the first week of 
February (which found conditions in the established camps reasonable, 
but much below standard in the spontaneous settlements and only 
slightly better in the host families), an appeal for funds should be 
issued today, covering the period through 30 June. Continuing emphasis 
will be placed on water and sanitation, with the intention to upgrade 
and rehabilitate a failing Ingushetia infrastructure. Much more 
emphasis will be placed on shelter, with the main aim being to repair 
and improve the host family living compounds (sheds, garages, etc. 
offered as shelter). In addition, some food assistance will be required 
for host families. For the first inter-agency flash appeal of $16.2m, a 
total of $14.1m has been pledged.
    Particularly since the fall of Grozny and the Russian claim to 
control the major part of Chechnya, questions have been asked about our 
intention to function inside Chechnya. Our opinion is that the 
situation does not appear to be safe for the majority of Chechens and 
we would therefore not encourage return at this stage. The recent human 
rights reports make us even more cautious. A second concern is that we 
cannot mount any assistance operation of significant scale, since we 
cannot send international staff into Chechnya, even on mission, to 
ensure proper control of the implementation of such an operation--due 
to the onmipresent and undiminished security risks, not only as a 
result of the war, but also from criminals.For the time being, UNHCR 
and its partners are setting up a system to provide assistance in 
Ingushetia for those who elect to return, and we have developed plans 
to run convoys across the provincial borders into Chechnya, depending 
on the feedback in the coming days from yesterday's first convoy.
    The U.N. Office of the Coordinator for Humanitarian Affairs is also 
planning to send a mission to Moscow this week to enter into 
discussions about setting up a possible assistance operation in 
Chechnya.


 Humanitarian Assistance in the Northern Caucasus (Russian Federation)

              information bulletin: as of 11 february 2000
Visit of the Secretary-General to Moscow
    The United Nations Secretary-General visited Moscow from 27 to 29 
January 2000 and had meetings with senior Russian officials. The 
situation in Chechnya was one of the topics discussed. The Secretary-
General reiterated his concerns about the fate of civilians in the 
Republic. While the international community fully understands the need 
for States to combat terrorism, the Secretary-General stressed that the 
use of force should be proportional and not endanger civilians. He 
noted that for the time being, UN humanitarian assistance is being 
provided to IDPs outside Chechnya but he looked forward to the day when 
UN assistance could be extended to those within Chechnya when 
circumstances permit.
Flash Appeal Review
    The United Nations deployed a team of international staff to 
Ingushetia during the first week of February to review programme 
implementation, assess priority needs, and plan future programmes in 
the region. The findings of the mission will provide the basis for the 
extension of the United Nations Consolidated Inter-agency Appeal which 
is being proposed to cover the period 1 December 1999-30 June 2000.
    The team comprised representatives from UNDP, UNHCR, UNICEF, 
UNSECOORD, WFP, WHO, OCHA, UNSECOORD, TOM, and the Danish Refugee 
Council (DRC). Representatives of the Russian Government (EMERCOM and 
the Federal Migration Service) accompanied the team. The main findings 
are cited below:

  <bullet> There are approximately 185,000 internally displaced persons 
        (IDPs) in Ingushetia. (UNHCR/DRC, working in close cooperation 
        the Regional Migration Service and local administrations was in 
        the process of completing a registration exercise during the 
        review mission.) About 70% of IDPs are living with host 
        families, 20% in spontaneous settlements, and 10% in camps. 
        While an estimated 30,000 to 50,000 IDPs have returned to 
        Chechnya, population movements into and out of Chechnya 
        continue.

  <bullet> On the whole, Emercom of Russia, UN agencies, ICRC and NGOs 
        are meeting the emergency needs although gaps still exist. 
        Agencies are continuing to provide emergency food rations, 
        medicines, warm clothing, water and sanitation. They will also 
        now start to focus on programmes such as education, income 
        generation, and psycho-social rehabilitation. The UN appeal, 
        due to be issued on 1 March 2000, will describe possible 
        scenarios, priority requirements and specific ways to address 
        them.

  <bullet> The security situation throughout the northern Caucasus 
        continues to hamper humanitarian action. Staff movements and 
        presence has to be limited, complicating management and 
        monitoring of aid operations.
Exploratory Mission to Chechnya
    During the review of the UN flash appeal, the opportunity arose to 
conduct a one-day exploratory mission inside Chechnya to gain a first-
hand indication of the overall situation and to help the UN agencies 
carry out contingency planning.
    The four-person UN team comprised members of UNHCR, UNICEF, OCHA 
and UNSECOORD. Two officials from Emercom accompanied the team. The 
team visited Garagorsk and Znamenskoye in the Nadterechnii district 
(central-northern Chechnya). It has 50,000 residents and an additional 
35,000 IDPs. 30,000 IDPs are hosted by residents or live in spontaneous 
settlements. 5,000 IDPs live in two camps, managed by Emercom and the 
Federal Migration Service. The security environment in that particular 
district appeared relatively stable but remains volatile.
    While conditions in camps appeared to be reasonably good thanks to 
the assistance provided by Emercom and the Federal Migration Service, 
the situation in the spontaneous settlements is grim. The district 
infrastructure is in deplorable shape but basic services such as 
electricity, gas and water are working. The team was struck by a fairly 
steady flow of cars, buses, and trucks along the district's roads. The 
information gathered by the team will help the UN in its contingency 
planning activities.
The Humanitarian ResponseIn total, UN High Commissioner for Refugees 
        (UNHCR) has sent 28 convoys to Ingushetia and 5 to Dagestan. 
        The last convoy to Ingushetia comprised 30 trucks which carried 
        more than 300 MTs of food items and 163 double-tier beds. 
        UNHCR's previous convoy included winterized tents and 1,105 
        double tier beds. Over 4000 MT of food have been delivered.
    UNHCR, which has been supplying food commodities to DRC for 
distribution, has now exhausted its food budget and the last 
commodities will be distributed next week. UN World Food Programme 
(WFP) commodities have now began to arrive to cover food requirements 
for 150,000 persons. The division of labour between agencies targeting 
IDPs and agencies targeting host families has been complicated by the 
fact that population groups are intermingled and are located in over 
261 places. The Russian Ministry of Emergencies (Emercom), WFP, UNHCR, 
the International Committee of the Red Cross (ICRC), and DRC are 
working out new arrangements to address this issue.
    UNHCR and the UN Children's Fund (UNICEF) are working together to 
improve the water and sanitation situation. On 1 February, UNHCR and 
the water and sewage organization of Ingushetia signed an agreement on 
emergency water supply to IDP settlements. The agreement comprises 
water trucking and installation of UNICEF's 14 water bladders. Other 
activities in this sector include rehabilitation of the central water 
distribution station, the laying of new distribution pipes, the 
provision of water tanks, showers, sewage disposal, and garbage 
collection.
    UNICEF has arranged an air shipment of some 30 MTs non-food items, 
which are expected to arrive in Vladikavkaz early next week. These 
items, including cold chain equipment to support the Ingush Ministry of 
Health to have an adequate immunization infrastructure throughout the 
Republic, will be distributed to various UNICEF supported assistance 
projects in Ingushetia.
    In addition to programmes implemented by UNHCR, UNICEF, WFP, WHO 
and ICRC, some 20 NGOs are now working in Ingushetia. Some, such as the 
DRC and World Vision (WV) have implementing arrangements with UN 
agencies in addition to their own programmes.
    As of 6 February 2000, DRC had distributed 80,000 winter jackets 
and boots. Moreover, DRC expects to distribute some 300,000 hygiene 
items to be supplied by UNICEF.
    Islamic Relief is supplying clean drinking water to 8 IDP camps, as 
well as providing food and non-food parcels to 4,100 families in the 
camps of Sputnik, Severny and Karabulak. By the end of January 2000, 
the NGO will have delivered 650 MTs of aid. Islamic Relief is also 
operating 4 mobile clinics providing primary health care in the three 
above-mentioned camps. The organization will start supplying its 4,100 
beneficiary families with coal in the near future. Plans are under way 
to expand the programme to additional 4,000 families.
    The Centre for Peacemaking and Community Development (CPCD) now has 
25 psychologists and trainee psychologists working for the 
psychological rehabilitation of traumatized children in four IDPs camps 
located in Severny, Sleptsovskaya and Karabulak. In addition, CPCD has 
distributed food parcels, clothes, blankets, and hygiene packets in 
Nazran and Sunzhe (Ingushetia), in Maiskii (North Ossetia) and in 
Semovodsk (Chechnya). The organization is also establishing a bakery in 
Sleptsovskaya.
    Dorcas Aid International has distributed 109 MTs of food and non-
food items to 8,000 beneficiaries in Vladikavkaz (North Ossetia), 4,000 
IDPs in Mozdok (North Ossetia), and to TOPs living with host families 
in Sleptsovskaya and Nazran.
    Action Contre la Faim (ACF) started distributing food and hygiene 
products to 5,700 IDPs in Sleptsovskaya at the beginning of February 
and plans to expand their distribution to 29,000 beneficiaries in 
Karabulak.
    The Salvation Army has distributed baby food to more than 8,000 
children under three in Malgobek, Nazran and Sunzhenski districts. A 
shipment of medicines will also be distributed shortly to vulnerable 
population in these areas.
    People in Need Foundation is currently providing some 3,000 
children with food, school materials and basic medical care in 4 
spontaneous settlements of Ingushetia.
The UN Inter-agency Flash Appeal: 1 December 1999-29 February 2000
    As of end of January, the donor community had pledged US$14.1 
million against the UN interagency flash appeal, compared to the US$ 
16.2 million requested. Whereas UNHCR, UNICEF and OCHA are completely 
funded, UNFPA, WFP, and WHO still require funds.

    The Chairman. Mr. Bouckaert.

 STATEMENT OF MR. PETER BOUCKAERT, INVESTIGATOR, HUMAN RIGHTS 
                             WATCH

    Mr. Bouckaert. Mr. Chairman, members of the Committee, it 
is a pleasure to be here today. And I thank you for your 
attention to the deepening crisis in Chechnya.
    My name is Peter Bouckaert. And I am the Emergencies 
Researcher at Human Rights Watch. I have just returned from 
three months in Ingushetia, the Republic neighboring Chechnya, 
where I have been documenting war crimes and other abuses in 
the war in Chechnya.
    Human Rights Watch researchers have been on the ground in 
Ingushetia since the beginning of November, and we have 
interviewed more than 500 witnesses in great detail about 
abuses.
    Because of our permanent presence in the region, we are 
able to collaborate eyewitness accounts through independent and 
consistent testimonies.
    Our research findings on Chechnya are publicly available in 
the form of some 40 press releases and two reports, and provide 
detailed information about the abuses summarized in my 
testimony. They are available on--on our website, and I have 
brought copies with me today.
    The evidence we have gathered in Chechnya is disturbing. 
Russian forces have committed grave abuses, including war 
crimes in their campaign in Chechnya.
    In Grozny, the graffiti on the wall reads, ``Welcome to 
Hell, Part Two,'' about as good a summary as any of what 
Chechen civilians have been living through in the past five 
months.
    Russia talks about fighting a war against terrorism in 
Chechnya, but it is Chechen civilians who have borne the brunt 
of the Russian offensive in this war, as in the first Chechen 
conflict.
    Most abuses we have documented have been committed by 
Russian forces, but we have also documented serious abuses by 
Chechen fighters.
    Mr. Chairman, since the beginning of this conflict, Russian 
forces have indiscriminately and disproportionately bombed and 
shelled civilian objects, causing heavy civilian casualties.
    Russian forces have ignored their Geneva Convention 
obligations to focus their attacks on combatants, and appear to 
have taken few safeguards to protect civilians. It is this 
carpet-bombing campaign, which has been responsible for the 
vast majority of civilian deaths in the conflict in Chechnya.
    The Russian forces have used powerful surface-to-surface 
rockets on numerous occasions, causing heavy death tolls in the 
hundreds in the Central Market bombing in Grozny and in many 
smaller towns and villages.
    Lately, Russian commanders have threatened to use even more 
powerful explosives, including fuel air explosives, which could 
have a disastrous casualty count if used against civilian 
targets.
    The bombing campaign has turned many parts of Chechnya to a 
wasteland; even the most experienced war reporters I have 
spoken to told me they have never seen anything in their 
careers like the destruction of the capital, Grozny.
    Russian forces have often refused to create safe corridors 
to allow civilians to leave areas of active fighting, trapping 
civilians behind front lines for months.
    The haggard men and women who came out of Grozny after 
their perilous journey told me of living for months in dark, 
cold cellars with no water, gas or electricity and limited 
food. The young children were often in shock, whimpering in the 
corners of their tents in Ingushetia and screaming in fright 
whenever Russian war planes flew over, reminding them of the 
terror in Grozny.
    Men especially face grave difficulties when attempting to 
flee areas of fighting. They are subjected to verbal taunting, 
extortion, theft, beatings and arbitrary arrest.
    On several occasions, refugee convoys have come under 
intense bombardment by Russian forces causing heavy casualties.
    Currently, tens of thousands of civilians remain trapped in 
the Argun River Gorge of Southern Chechnya, stuck behind 
Russian lines, without a way out from the constant bombardment 
and rapidly running out of food supplies.
    For many Chechens, the constant bombardment was only the 
beginning of their horror. Once they came into contact with 
Russian forces, they faced even greater dangers.
    Human Rights Watch has now documented three large-scale 
massacres by Russian forces in Chechnya.
    In December, Russian troops killed 17 civilians in the 
village of Alkhan-Yurt while going on a looting spree, burning 
many of the remaining homes and raping several women.
    We have documented at least 50 murders mostly of older men 
and women by Russian soldiers in the Staropromyslovski District 
of Grozny since Russian forces took control of that district--
innocent civilians shot to death in their homes and their 
yards. In one case, three generations of the Zubayev family 
were shot to death in the yard of their home.
    On February 5th, a few days after Secretary of State 
Albright met with President Putin in Moscow, Russian forces 
went on a killing spree in the Aldi district of Grozny, 
shooting at least 62 and possibly many more civilians who were 
waiting in the street and their yards for soldiers to check 
their documents.
    These were entirely preventable deaths, not unavoidable 
casualties of war. They were acts of murder, plain and simple.
    Refugees are returning to Grozny to find their relatives or 
neighbors shot to death in their homes. And most disturbing of 
all, there is no evidence that the killing spree has stopped.
    In the past month, the Russian forces have begun arresting 
large numbers of civilian men throughout Chechnya. These men, 
numbering well over 1,000, and some women have been taken to 
undisclosed detention facilities, and their relatives are 
desperately trying to locate them.
    I have spoken to men who have been able to pay their way 
out of these detention camps, and they have given me consistent 
and detailed testimony about constant beatings, severe torture, 
and even cases of rape of both men and women.
    One of the men I have interviewed suffered from a back 
injury after being hit by a heavy metal hammer.
    A second man had several broken ribs and suffered from 
kidney problems from the severe beatings.
    The constant attacks by Russian forces against the civilian 
population have caused more than 200,000 Chechens to flee into 
neighboring Ingushetia, overwhelming the local population, 
which numbers only some 300,000.
    Many more internally displaced persons are trapped inside 
Chechnya, especially in the Southern Argun River Gorge, unable 
to seek safety because of the refusal of Russian forces to 
create safe corridors.
    The conditions in the refugee camps are dire, with 
inadequate shelter, food, clean water, heating and other 
essentials. Only a minority of refugees are housed in crowded 
tent camps or railway cars. The majority live in makeshift 
shelter, in abandoned farms, empty trucking containers or 
similar substandard shelter. Many are forced to pay large sums 
for private housing.
    Because the refugees are forced to rely on their own 
limited resources for survival, they are often forced to return 
to what is still a very active war zone when they run out of 
money, putting their lives at renewed risk.
    Russia is not allowing humanitarian organizations to 
operate freely in Ingushetia and is virtually blocking any 
direct assistance to needy persons inside Chechnya.
    Refugee children in Ingushetia are not attending school and 
medical needs often go unmet.
    The contrast with the international response to last year's 
Kosovo crisis is striking, although the security concerns and 
Russian obstruction are certainly relevant factors.
    Russian authorities have repeatedly attempted to force 
refugees to return to Chechnya by denying them food in the 
camps or by rolling their train compartments back to Chechnya.
    Russia is attempting to relocate refugee populations to 
areas of Northern Chechnya under Russian control, which would 
place them beyond the direct reach of international 
humanitarian agencies and under more direct Russian control.
    The border between Chechnya and Ingushetia is regularly 
closed, preventing refugees from fleeing to safety and often 
splitting up families stranded on different sides of the 
border.
    Following the destruction of the capital, Grozny, and many 
other towns and villages in Chechnya, and the widespread 
looting and burning of homes, many refugees simply no longer 
have homes to return to. Everything they owned in this world 
has been destroyed.
    As in all conflicts where we work, Human Rights Watch 
documents violations by all sides to the conflict in Chechnya. 
We have uncovered evidence of serious abuses by Chechen 
fighters in the conflict.
    Chechen fighters, particularly those among them who 
consider themselves Islamic fighters, have shown little regard 
for the safety of the civilian population, often placing their 
military positions in densely populated areas and refusing to 
leave civilian areas even when asked to do so by the local 
population.
    Village elders who tried to stop Chechen fighters from 
entering their village have been shot or severely beaten on 
several occasions.
    In short, the Chechen fighters have added to their--to the 
civilian casualty count in Chechnya by not taking the necessary 
precautions to protect civilian life.
    Some Chechen fighters were also responsible for brutal 
abuses in the interwar years, including widespread kidnapings 
and hostage takings.
    And there is convincing evidence that Chechen fighters have 
executed captured Russian soldiers in this conflict.
    But without minimizing the seriousness of abuses carried 
out by Chechen fighters, it is important to state that the 
primary reason for civilian suffering in Chechnya today is 
abuses committed against the civilian population by Russian 
forces.
    One of the most troubling aspects of the war is that the 
Russian authorities have failed to--to act to stop abuses 
perpetrated by their troops in Chechnya.
    There is simply no indication that the Russian authorities 
have taken any steps to prevent these abuses, to investigate 
them when they do happen, and to punish those responsible.
    As a result, a climate of impunity is rapidly growing in 
Chechnya. Russian soldiers know that they can treat civilian--
civilian--Chechen civilians however they like and they will not 
face any consequences.
    Nowhere is the failure of the military authorities to stop 
abuses in Chechnya more obvious than in the widespread looting 
which has taken place in Chechnya since the beginning of the 
war.
    Soldiers are systemically looting civilian homes, carting 
away the stolen goods on their military trucks and storing them 
at their barracks in plain daylight. The looting is visible to 
everyone, and it is occurring right under the noses of their 
commanders. Yet nothing is being done to stop this and other 
abuses.
    The absolute failure of the Russian military command to 
stop war crimes, particularly summary executions, in Chechnya 
makes them highly complicit in these abuses. Instead of acting 
to prevent abuses, the Russian military has continued to issue 
blanket denials about abuses.
    In the face of the overwhelming mountain of evidence about 
abuses in Chechnya, these blanket denials are unacceptable.
    Mr. Chairman, equally worrying is a lack of a strong 
Western response to the abuses in Chechnya. Instead of using 
its relationship with Russia to bring an end to the abuses in 
Chechnya, the Clinton Administration has focused on cementing 
its relationship with Acting President Putin, the prime 
architect of the abusive campaign in Chechnya.
    Secretary of State Madeline Albright traveled to Moscow 
while bombs were raining down on Grozny, and chose to focus her 
remarks on Acting President Putin's qualities as the new leader 
of Russia, rather than on the brutal war in Chechnya.
    U.S. officials continue to understate the level of 
atrocities in Chechnya, talking about abuses in the war rather 
than calling those abuses by their proper name, war crimes.
    The administration is understating the amount of influence 
and power it has over Moscow, because the administration wants 
to continue with business as usual and mend its ties with 
Moscow in the wake of the NATO bombing campaign in the former 
Yugoslavia.
    To date, the international community has given the Russian 
government no reason to fear any repercussions for its actions 
in Chechnya.
    The United States and its Western allies could be doing a 
lot more to stop the brutal abuses in Chechnya.
    Starting Friday at the trilateral EU-U.S.-Russia meeting in 
Lisbon, they must call the abuses in Chechnya by their proper 
name, war crimes, and must insist that there will be no 
``business as usual'' with Russia while these violations 
continue.
    The West must insist on accountability for the crimes 
committed in Chechnya, and an end to the rapidly growing 
climate of impunity developing in Chechnya.
    An immediate international monitoring presence should be 
established to document war crimes and other abuses in Chechnya 
and to provide the international community with accurate and 
reliable information about abuses in Chechnya.
    The U.S. should push the World Bank and the IMF to 
explicitly suspend pending loan payments until the Russian 
Federation takes steps to rein in its troops, beginning a--and 
begin a meaningful process of accountability for abuses, and 
fully cooperates with the deployment of an international 
monitoring presence in the North Caucasus.
    The IMF and the World Bank should not be financing a 
government bent on a policy that is so destructive and contrary 
to their institutional mandates as the Russian military 
operation in Chechnya.
    The U.S. should encourage its European allies to bring a 
case to the European Court of Human Rights, charging Russia 
with the blatant violations of its International Treaty 
obligations in the conduct of the Chechen war.
    The conduct of the Chechen war and the creation of a 
Commission of Inquiry should be a prominent item for discussion 
at the upcoming U.N. Human Rights Commission meeting, and the 
U.S. should--must insist on a discussion of the Chechen 
conflict at the U.N. Security Council, because the conflict in 
Chechnya has major implications for international peace and 
security.
    Mr. Chairman, please allow me to end my testimony with an 
expression of thanks and a plea. I will be returning to 
Ingushetia soon. And I want to bring a message of hope to the 
victims of this war, the Chechen civilians who had nothing to 
do with why this war started, yet who are suffering the 
greatest.
    I want to be able to tell them that the West cares about 
their suffering, and that they have not been forgotten.
    I will take copies of the Senate resolution adopted last 
week. Thank you for that expression of concern. But my plea is 
that your engagement not begin and end there, but that you 
exercise sustained leadership towards establishing U.S. policy 
towards Russia that insists on accountability and an end to 
violations.
    Thank you.
    The Chairman. Well, I thank you. And I have tried in the 
nearly 28 years that I have been here to let politics stop at 
the water's edge, but I am ashamed of our government in this 
regard. I am ashamed of comments that have been made in defense 
of Russia, and that is what it amounts to.
    But I--the two of you who have already testified have been 
great. And Tom Dine is going to be equally great, because I 
know him. Tom.

  STATEMENT OF MR. THOMAS DINE, PRESIDENT, RADIO FREE EUROPE/
                         RADIO LIBERTY

    Mr. Dine. Mr. Chairman, I thank you very much for this 
hearing. I thank the members of the Committee who have been 
with you in expressing yourselves so forcefully.
    Each one of your messages, starting with your letter, Mr. 
Chairman, with Senator Biden on the 31st of January was a shot 
across the bow of the Putin Presidency and the Putin policies 
that have just been articulated here so eloquently. So I join 
with everyone in thanking you personally, thanking the 
Committee, thanking the Senate.
    The articulation of the centrality of freedom of the press, 
the articulation of the violations in Russia of the freedom of 
press, and what has been going on in Chechnya, are critical.
    I believe that your letters, your resolutions have had 
impact. We saw it for sure in your first letter in--in 
expressing a sense of urgency, and it played a key role, I 
believe, in Moscow's decision to finally release Andrei 
Babitsky this past Friday and return him to his wife and family 
and colleagues in Moscow.
    Mr. Chairman, he is still not free, however. He is under a 
ruling of the Ministry of Interior to stay in Moscow as the 
charges against him are worked out through the Russian judicial 
system.
    So this odyssey, this illogical, horrible, tragic odyssey 
in violation of all that we stand for as global citizens, as 
well as American citizens, is still going on.
    The title of the film that you showed excerpts of, ``The 
Dark Side of the World,'' is an understatement in terms of what 
is taking place.
    The Czech journalists who made this film showed it to us in 
Prague just a couple of weeks ago, to all of our journalists 
who assemble every morning at 11:00 o'clock for what is called 
the editorial board meeting.
    And all of us were just horrified. The fact that Andrei 
Babitsky participated with those who made that film made it 
even more telling and more stinging for all of us.
    Just a little housekeeping--I have a much longer statement. 
If you would, sir, I would appreciate it if it would be 
included in the record.
    The Chairman. Well, in the case of all of you, if you have 
additional statements, we will include those in the printed 
record of this meeting.
    Mr. Dine. Thank you.
    The Chairman. And you may proceed.
    Mr. Dine. Across the post-Communist world, media freedom is 
under attack from governments who do not want a free press, the 
very press that monitors what governments do and inform their 
citizens about what governments do. And because media freedom 
is the basis of all other freedoms, all freedoms that we 
cherish are now at risk as well.
    As you know, over the past six weeks, we have had a 
dramatic demonstration of this in the Russian detention and 
mistreatment of our correspondent, Andrei Babitsky.
    As you know from the most recent news report, we are elated 
that he is still alive; and as I have just indicated, he is 
still, however, is not totally free. So the struggle continues.
    Today, I would like to mention three things: First, to tell 
you about the case and the lessons we have learned from it; to 
outline some of the broader challenges we face across this 
region that we broadcast to; and to tell you something about 
what we at Radio Free Europe/Radio Liberty are doing to meet 
those challenges.
    First, about Andrei Babitsky. He is an accomplished veteran 
correspondent. Most of his coverage has been about violent 
conflict and war.
    The Chairman. Right.
    Mr. Dine. He is only 36 years old. During the first Chechen 
war from 1994 to 1996, and, again, since November 1999, Andrei 
was on--on the scene providing accurate and even-handed 
reporting about this endless, terrible conflict. He was 
criticized by both sides, but only one, the Russians--the 
Russian side took action against him.
    The Russian Media Center in the North Caucasus on December 
27th lambasted Andrei for his reporting about the large number 
of Russian casualties and of the even larger number of civilian 
deaths Russian forces had caused.
    That Russian act of intimidation did not work, nor did the 
short-term arrest of other journalists or the harassment of 
Andrei himself. He continued to report honestly and accurately, 
often at the risk of putting himself in danger.
    In early January, Mr. Chairman, his wife was then harassed. 
He had come home to Moscow for the holiday break and had 
brought film footage with him that he had taken in Chechyna, 
gone to the local photo store in the neighborhood he lives in, 
and then he went back to Chechnya to continue reporting.
    His wife, Lyudmilla, went to pick up the film. When she was 
inside the shop, the entrepreneur picked up the phone and 
called whomever, probably Ministry of Interior people, and two 
authorities of the Russian government came into the store, took 
the film, intimidated Mrs. Babitsky, and that film has never 
been seen again. Their apartment was then violated as well.
    On the 16th of January, Andrei was detained in Chechnya and 
put into a Russian filtration camp. And we have just heard the 
horrors of several of those which are in Chechnya and the 
particular institution Andrei was put into.
    And in my prepared testimony that is now part of the record 
is a chronology of all of what happened to Andrei Babitsky, 
and--and it is quite graphic.
    What have we learned from this case? First of all, media 
freedom is far from guaranteed in Russia. In fact, what we are 
witnessing is regression. And in a previous position, I have 
been before this Committee heralding democracy in Russia. But 
that that was then, Mr. Chairman. I am afraid to tell you now--
I admit what I said then, but I am telling you forthrightly now 
what I know from our own journalists, that Russia is a country 
that knows not what its future is and impulsively wants to 
return to its past.
    The Chairman. Yes.
    Mr. Dine. There is intolerance. There is intolerance of an 
outspoken and critical press. And no society that is worth 
itself can do without such an outspoken and critical media.
    Second, Russia officials under Putin far too easily slip 
back into Soviet era patterns. We have--we have witnessed on 
the film, on what Human Rights Watch has reported time after 
time, what our correspondents--and we have had three in the 
Chechen war zone, including Andrei Babitsky--all of them report 
totalitarian tactics, harassment, threats, violation of the 
human being, the human body, the human spirit.
    We have seen the re-centralizing of authority in Moscow, 
and that is not good for all of us.
    Today, Andrei Babitsky held a press conference at Radio 
Liberty in Moscow. This is the first time he has gone public 
since he returned from a long stay in Chechnya and a shorter 
stay in Dagestan.
    He opened by thanking his colleagues, the Russian press, so 
many of whom have been so valiant, so outspoken and so 
courageous and so much on the side of press freedom. He 
described in detail his odyssey. I do not have all his words 
yet. He began his press conference just as I got out of the 
taxicab to come inside this building.
    If we can get a copy of everything, of what he said and get 
it translated into English, we will certainly share it with you 
and your colleagues.
    But he made a persuasive presentation that he was in the 
hands throughout this torturous five and a half weeks of 
Russia's security services, which includes the FSB (or the 
former KGB), and the Ministry of Interior, known as the MVD. 
And he was in the hands of pro-Moscow Chechens.
    He described his captivity in many ways. And he said, to 
make his point at the end of his statement, that on February 
23rd when he was taken across borders, he knew he was in the 
hands of the Russian government authorities, because at a time 
of great tension and great security along the borders, he was 
driven right through. So he was in the hands of people who knew 
what they were doing.
    The Chairman. Yes.
    Mr. Dine. Third, about the Russian government, the Putin 
regime has sent a signal that it is prepared to play fast and 
loose with the truth. In the Babitsky case, we have only 
experienced duplicity, tactics that have tried to be confusing 
to all of us, and to keep us off the scent of where Andrei 
Babitsky was.
    And--and the good news is, of course, we finally caught up 
with him, and he has returned to Moscow.
    Many in both Russia and the West are trying to portray this 
as an exceptional case, as a bump on the way to a better 
future. We believe, however, that we know something more 
factual about that.
    The situation in Russia and Chechnya is distressing. 
Harassment of journalists, playing favorites with newspapers, 
pressure on the only independent television network, NTV, 
tightening control over regional media, all of this with little 
or no regard to legal niceties.
    But in other countries it is even worse. For instance, 
Belarus is a disaster. Belarus is now in the hands of a 
dictator that wants to be the president of a reunified Russia/
Ukraine/Belarus. Ukraine has been pressuring journalists, 
particularly during the presidential election held in December.
    The Caucasus show few bright spots. But the worst situation 
of all is in Central Asia. Uzbekistan and Turkmenistan impose 
censorship daily in the Soviet style. They arrest and harass 
journalists.
    The case of Nurberdy Nurmamedov this past week is an 
example. He was assigned to jail for five years. Why? He talked 
to Radio Liberty's Turkmenistan correspondents in Prague over 
the telephone. He was critical about the government in 
Ashkhabad, Turkmenistan. So he and his son have now been thrown 
into the clinker, and God only knows what is going to happen to 
them.
    Tajikistan and Kazakhstan are slipping backwards. And 
Kyrgyzstan, which was so--for--for many of us, our hope-- and I 
think I am on record as testifying somewhere on Capitol Hill 
that it was the oasis of democracy in the Central Asian desert. 
And now we see Kyrgyzstan going retrograde as well.
    One of the lessons about this general picture of the region 
to which we broadcast to, Mr. Chairman, is privatization did 
not by itself guarantee media freedoms.
    The privately owned press is the object of government 
intimidation. One of the owners of NTV, the independent--the 
only independent television network station in Russia--is here 
this week.
    Mr. Guzinsky intimidated by one of his stockholding 
partners, Gasprom. Two weeks ago, the chairman of Gasprom said 
publicly that what NTV was showing about the--the horrors of 
Chechnya, the dark side of the world, was not in the interest 
of Russia.
    Second, post-communist governments in this part of the 
world control the electronic media on which most depend, far 
more than the print media, on which these countries are 
typically evaluated by Western observers.
    If you control the television, if you control radio, you do 
not have to worry about the newspapers in this part of the 
world. And, third, all of these countries are going to need a 
lot of help from the outside for a long time to come if they 
are going to reform their basic institutions and become modern, 
open societies.
    And I would include in my use of the word ``help,'' the 
pleas that I have heard from all of you today, that is, 
``pressure.''
    That brings me to my final point, the continuing mission of 
Radio Free Europe/Radio Liberty. Today, we broadcast to 24 
countries in 26 languages. These countries are in Central and 
Eastern Europe, the former Soviet Union, and Iran and Iraq. All 
of these areas, in one form or another, are in political and 
economic trouble.
    We broadcast daily. That amounts to 900 hours a week of 
language programming in the vernacular--we do not broadcast in 
English--to all of these countries.
    Also, Mr. Chairman, we have more than 10 million visitors 
to our websites every month. And publications such as our daily 
``Newsline,'' which goes to every office on Capitol Hill, and I 
know is used up here--is something that is worthy and keeps all 
of us informed.
    Overall, the events that we have been through over the last 
five and half weeks with finding and hopefully freeing finally 
Andrei Babitsky, demonstrate the relevance of our mission, the 
promotion of democracy.
    The telling of truth as we know it, so that people can make 
their own decisions in their own way in their own societies. 
Like so many of you, who are on the front lines of the battle 
for freedom, we know we have to continue the fight, but we are 
not going to fall into pessimism.
    What is our reason for hope? The response of so many 
Russians, the response, especially, of Russian journalists. And 
I believe you have behind this, the horrible picture of Grozny, 
the blowup of a publication that came out two weeks ago, 
``Obshchaya Gazeta.''
    This is a document of four pages that was distributed on 
the streets of Moscow, 180,000 copies were distributed. Down 
the left column, you see the sponsors, 32 of them, from the 
Russian press. RFE/RL is one of those sponsors.
    This was Russia's journalists showing their solidarity with 
Andrei Babitsky and their fear of the regression taking place 
in Russian society about their press freedoms.
    On this score, Mr. Chairman, I promise you and others of 
this Committee that we at Radio Free Europe/Radio Liberty, 
myself personally, will do everything possible to see Andrei 
Babitsky finally, finally freed, to make sure that this horror 
hopefully never occurs again, and when it does, whether it is 
in Turkmenistan, Uzbekistan, Belarus, or some other place, we 
are going to do everything we can to get our person out and to 
uphold the value of freedom of the press.
    Thank you very much.
    [The prepared statement of Mr. Dine follows:]

                  Prepared Statement of Thomas A. Dine

  keeping the window open: rfe/rl and media freedom in post-communist 
                               countries
    Thank you, Mr. Chairman, for holding this hearing and for inviting 
me to appear.
    Across the post-communist world, media freedom is under ever-
increasing attack from governments who fear the free flow of 
information.
    Just as the appearance of glasnost almost 15 years ago helped to 
spark the drive toward democracy and freedom in Central and Eastern 
Europe and in the former Soviet Union, so now this government-sponsored 
attack threatens to close the window not only on freedom of the press 
but to close freedom's windows on the possibility for open societies in 
places which have known too little freedom in the past.
    Over the past six weeks, we at RFE/RL have experienced this renewed 
government effort to control the media first hand. Russian authorities 
arrested our correspondent Andrei Babitsky just because he reported 
honestly about the Chechen war and more recently have claimed to have 
handed him over to a Chechen group. Even though Andrei is now at home 
in Moscow with his family, this saga is not over because charges are 
still pending against him.
    This morning, I would like to discuss with you some of the 
significant lessons we believe that the Russian government's actions 
have for the future. But before doing that, I want to take this 
opportunity to thank you, Mr. Chairman, and this entire Committee, for 
the role you played in this case and especially for the Senate 
resolution you authored and pushed through in support of Andre 
Babitsky. That document played a major role in the progress we've seen 
so far, and on behalf of Andrei Babitsky and all of us at RFE/RL, I 
want to express our gratitude for your efforts
    But my subject is broader than Andrei Babitsky, whose case has 
received enormous attention from the media and human rights groups 
around the world and about whose fate I am sure you are broadly 
familiar. It is also the disturbing pattern we now see in one 
postcommunist country after another where governments which profess to 
be democratic are in fact seeking to turn back the clock to a time when 
rulers decided what those living under their control could know and 
when they could know it.
    But there is another part of this story, one in which we at Radio 
Free Europe/Radio Liberty are playing a major part and one that gives 
some basis for optimism about the future. And that is the struggle of 
journalists and ordinary citizens in these countries to maintain and 
expand freedom. As was the case in the worst times of the Cold War, we 
are helping them to do so. Not only do our programs send a powerful 
signal that they are not alone as they struggle against post-communist 
tyrannies, but in many countries, our broadcasts help to provide the 
information and analysis that the people of these countries cannot yet 
or can no longer get from their own domestic news outlets.
    In that battle to keep freedom's window open, we are winning 
victories every day over those who would deny to their own people 
freedom of the press. And because a free press is the guardian of every 
other right that free peoples prize, this is a fight that we must all 
wage and that we are confident that we will win.
Moscow's Mistreatment of Andrei Babitsky
    All of you have heard about the case of Andrei Babitsky, about his 
detention by Russian authorities, his purported transfer to the 
Chechens, his reappearance in Daghestan at the end of last week, and 
his return to Moscow. But allow me to give you some details about what 
has happened to him throughout this period. (I have attached to my 
testimony a complete chronology of this saga.)
    Andrei is 36 and already a prize-winning war correspondent. He won 
praise for his accurate and even-handed reporting during the first 
Chechen war in 1994-96 and won it again for his coverage of the second 
Chechen war since the fall of last year. Indeed, at the time of his 
detention, he was virtually the only independent journalist in 
Chechnya, criticized by both sides for his reporting.
    Between January 15 when we last spoke to Andrei before his 
detention by Russian officials and February 25 when he reappeared in 
Daghestan, neither we at RFE/RL nor any other independent organization 
had contact with him. And throughout that six-week-long period, Russian 
officials regularly issued contradictory, false, and duplicitous 
statements about Andrei Babitsky's whereabouts and condition.
    Initially, Russian officials even denied that they had arrested 
Babitsky and only acknowledged his detention after we and other media 
outlets began asking questions. Once they did acknowledge that he was 
under their control, Russian officials violated Andrei's rights as a 
Russian citizen by denying him contact with his family and lawyer and 
repeatedly changed their stories as to why he was being detained.
    Then on February 3, Russian officials produced a film clip that 
purported to show Babitsky being handed over to Chechen fighters, an 
action that if true clearly violates not only Russian law but the 
Geneva Convention as well.On that occasion too, Russian officials could 
not decide what the truth was. Some said that Andrei had volunteered to 
be exchanged. Others, including Interior Minister Vladimir Rushailo, 
claimed that the exchange was entirely legal and proper. And still 
others asserted that with this exchange, Moscow no longer bore any 
responsibility for Babitsky's fate.
    Such Russian claims and the obvious defects in the film itself--
defects which suggested to many people that the entire exchange had 
been staged for the cameras--sparked a firestorm of criticism by media 
and human rights groups in the Russian Federation and abroad as well as 
demands by international organizations and some Western governments 
that Moscow find Babitsky and restore him to his family and colleagues.
    Then, the Russian authorities produced another film clip purporting 
to show Babitsky in Chechen captivity on February 6. But that film too 
was not without problems and in fact raised more questions than it 
answered. Obviously, pro-independence Chechen officials, who would have 
had every interest in producing Babitsky to the world and thus 
embarrassing Moscow, repeatedly denied that any exchange had taken 
place or that he was in an area under their control.
    In the face of this criticism and mounting fears for Babitsky's 
life, Moscow changed its line once again, asserting--completely 
implausibly--that Russian officials knew that Babitsky was alive but 
they did not know where he was. Obviously, if these officials knew he 
was alive, they had to know where he was, and if they didn't know where 
he was, then they could not possibly know whether he was alive. A kind 
of newspeak that reflects the worst of old times.
    On February 15, acting Russian President Vladimir Putin became the 
latest and most senior official in Moscow to make that claim and to say 
that he had askedi Russia's security services to ensure Babitsky's 
safety.
    Speaking to journalists on that date, Putin said that he was in 
constant contact with officials in the Russian security services and 
the office of the prosecutor general. and that these officials were 
doing ``all they can'' to ensure that Babitsky remains alive and is set 
free. But the acting president then undercut his own claims by 
suggesting that ``as far as I understand the situation, [Babitsky] 
already feels free.''
    Putin's decision to get involved in the case initially raised hopes 
that Babitsky might soon be released, but with each passing day, the 
acting Russian president's words appeared to be nothing more than 
another example of the Russian government's obfuscation and delay in 
this case.
    Then, last Friday, Andrei Babitsky resurfaced in Daghestan, brought 
there in the trunk of a car from an unknown location. Russian officials 
subsequently charged him with passport violations after he used a 
document that had been forced upon him. He was then flown to Moscow and 
was released on his own recognizance while Russian government 
investigators continue to examine his case.
Lights Going Off Windows Being Closed
    We are elated that Andrei is alive and back with his family, and we 
expect that all of the trumped-up charges against him will be dropped. 
But we remain concerned about something else: Russian officials and 
some Western observers have attempted to portray the Babitsky case as 
an isolated incident, a bump on Russia's road to a better future. That 
view is becoming ever harder to sustain not only for Russia. but for 
many of the other post-Soviet states as well.
    The situation in Russia itself is distressing enough. In Chechnya, 
the Russian authorities have harassed and even arrested other 
journalists throughout the conflict. Moscow has set up a press bureau 
to ensure that Russian officials and not journalists will determine 
what Russians read and hear about the conflict. The private owners of 
the one independent television network have been subjected to pressure 
by the government and they in turn have put pressure on NTV to tow the 
government's line on Chechnya or face the loss of the owners' financial 
backing.
    Russian officials now routinely play favorites among journalists, 
giving interviews only to those who toe the pro-government line. A 
Kremlin press officer, for example, said last week that acting 
President Putin would never give an interview to the editors of 
``Segodnya'' that has maintained some independence in the face of 
earlier pressure. And Duma deputies in the faction which supports Putin 
have told our correspondents that they will, no longer talk with us.
    Moreover, Russian officials are doing this with little regard for 
legal niceties. Two weeks ago, the media minister annOunced that Moscow 
was moving to put the regional press under the control of the central 
authorities--even though he publicly acknowledged that there was no law 
allowing the government to do so. Instead, the minister fell back on 
the line that he was acting on the basis of secret ``internal 
directives.''
    Not surprisingly, both the high profile Babitsky case and these 
other government actions have frightened and even intimidated some 
journalists and their audiences. The leader of one Russian media 
watchdog group even said last week that ``this is the beginning of a 
tragic epoch for the Russian press.''
    But Russian journalists are trying to fight back. Two weeks ago, a 
special edition of the weekly newspaper ``Obshchaya gazeta'' featured 
appeals by 32 editors and writers condemning what the authorities have 
done to Babitsky and to the media. ``This is a fight for a normal 
climate,'' one of them said. ``I don't expect that after this, [the 
authorities] will stop pressuring newspapers and magazines. No. But 
society will at least evaluate the conditions in which it lives.''
    Most of these recent expressions of concern about media freedom 
have focused on the printed press, the only portion of the Russian 
media that had generally gained some real independence from the 
government. The domestic electronic media `` radio and especially 
television--remain under far tighter central control. And since it is 
through these channels, rather than via newspapers, that the 
overwhelming majority of Russians now get their news, the state of 
press freedom in Russia was already dire even before the Babitsky case. 
More recently, the Russian authorities have moved to increase their 
ability to,monitor and control the Internet, a channel of communication 
many had hoped could escape such government supervision.
    But if things are distressing in the Russian Federation, they are 
even worse elsewhere. The director of our Belarusian service--the only 
Western Belarusian-language broadcaster to that critically important 
country--told me just before I came to Washington that ``the game of 
press freedom in Belarus is one of few rules and even fewer winners, 
but the main loser is the audience.'' Alyaksandr Lukashenka bans state-
run firms from advertising in the independent media, the information 
ministry--a current-day replica of Orwell's ministry of truth--not only 
tries to regulate content but even the grammar of articles. And 
Belarusian society is subjected to an unceasing Soviet-era style anti-
Western propaganda campaign.
    The situation in Ukraine is somewhat better, but in recent months, 
officials there too have sought to pressure both domestic and foreign 
broadcasters into avoiding criticism of the country's leadership and of 
the rising tide of corruption there.
    In the Caucasus, all three countries have a mixed record, allowing 
some freedom but using a variety of means to discourage certain 
critical reporting. Azerbaijan is almost certainly the worst offender 
in that region. Its government has sponsored raids on journals and 
television stations that carry criticism of senior officials. It has 
confiscated equipment and taken other steps to prevent newspapers and 
electronic media to do their jobs. And it now has a new press law that 
imposes draconian penalties on anyone who criticizes the president or 
his entourage.
    But the worst situation in the post-Soviet space is to be found in 
Central Asia. There are no bright spots there anymore, a sad commentary 
on the retreat Kyrgyzstan has made from its earlier and much-praised 
commitment to democracy and freedom. In Uzbekistan and Turkmenistan, 
the governments not only impose tight censorship over all publications 
but they regularly harass our correspondents and even those who speak 
with our correspondents. Indeed, a few weeks ago, Uzbek President Islam 
Karimov lashed out at foreign journalists for their coverage, pointedly 
suggesting that they were serving foreign masters at high pay.
    Tajikistan remains a country torn apart by war. To speak of media 
freedom there is to speak about something that does not really exist. 
Kazakhstan and Kyrgyzstan appear to be bellwether countries. The state 
of press freedom in Kazakhstan is deteriorating rapidly. The government 
has not only harassed journalists, it has used its fmancial clout to 
force newspapers and journals to be sold to those close to President 
Nursultan Nazarbayev who can then control them even though they remain 
nominally private.
    Over the past year, Kazakhstan's government has prohibited several 
papers from going to print or bringing in their publications from 
abroad, thus effectively killing most of them. The offices of some 
papers even have been firebombed. And at the end of last year, Astana 
created a new telecommunications billing center to monitor the use of 
the Internet by Kazakhstan citizens. To support that effort, the 
government pushed through a new law allowing the KGB successor 
organization there to monitor email messages, fax transmissions and 
telephone conversations without any involvement by the courts.
    Such arrangements have sent a chill through that society.
    Kyrgyzstan, in which so many had placed so much hope, appears to be 
drifting off in the same direction, President Askar Akayev has 
appointed a former communist ideology secretary to oversee the 
country's radio and television corporation. His courts have imposed 
punitive fines on newspapers and journals which have carried critical 
articles. And last September, the authorities forced the editor of the 
independent ``Vecherniy Bishkek'' to resign after he published 
interviews with opposition politicians and a series of articles 
containing restrained criticism of the government.
    All of these developments offer several lessons to those of us 
concerned about this region: First, privatization has not been by 
itself a guarantee of media freedom. Governments continue to possess 
the clout to get their views accepted. Second, all the governments in 
this region continue to have far greater control over the part of the 
media--radio and television--which the population listens to most. Just 
because you can find alternative views in the press does not mean that 
people can afford to buy them if they live in capital cities or that 
people in the regions ever see such publications. And third, for these 
countries to have a chance to establish press freedom and democracy, 
they are going to need a lot of outside help for a long time to come.
    That is where our station comes in, and that is what I want to talk 
to you about next.
    For almost 50 years, Radio Free Europe/Radio Liberty has been 
broadcasting to the nations of Eastern Europe, the former Soviet Union, 
and now for the past two to Iran and Iraq as well. Our 22 services beam 
more than 900 hours of vernacular language programming to these 
countries, the largest number ever. More than ten million people visit 
our website every month. And our publications, including our flagship 
RFE/RL Newsline, are essential reading around the world. And we do all 
this with only one-quarter of the staff and one-third of the resources 
we had only five years ago.
    In the aftermath of the collapse of communism in Europe and the 
disintegration of the Soviet Union, many thought that our radio station 
had lost its raison d'etre. They believed that with communism out of 
the way and the Soviet empire in ruins, there was no need for what some 
called a ``relic'' of the Cold War. But the last few years and 
especially the last few months have demonstrated to everyone's 
satisfaction that our reinvented communications company will have a 
role to play well into the 21st century. And last fall, I am proud to 
say, the Congress eliminated 1994 language calling for the end of 
government funding for our company, and now, as we fight for Andrei 
Babitsky, we are learning just how many allies we have across the 
world.
    But our role today is both different and larger than it was in the 
past. Until the late 1980s, we broadcast to a region under tight 
communist and Soviet control, and we performed the only role many 
people still think we have to play: as a surrogate broadcaster to 
countries whose populations lack a free press.
    More recently, we have acquired two additional roles: as a kind of 
insurance policy for countries making the first halting steps toward 
democracy and a free media and as a model for how journalism should be 
conducted. With regard to the first, our very existence tends to 
moderate the behaviour of officials inclined to censorship. They know 
that if they try to silence someone, he or she can turn to us. And that 
possibility works against a return to the past. And with regard to the 
second, our journalists work closely with journalists in many 
countries, showing them what professional journalism is all about and 
helping to give them the courage to practice it in the face of enormous 
odds.
    When I became president of RFE/RL just over two years ago, I 
thought that our surrogate role would decline over time. I still hope 
that will prove to be the case, but I know now that such a happy future 
is still a long way off in many countries.
    Indeed, the horizon for that iLs ever more distant in many of the 
countries we deliver news to. But such retreats cannot be an excuse for 
doing less; they must be the basis for redoubling our efforts. You on 
this Committee know that better than most that the path toward human 
freedom has never been without its twists and turns, its retreats as 
well as its advances. And I pledge to you that we at Radio Free Europe/
Radio Liberty will continue the fight.
A Final Hopeful Thought
    A decade ago, most of us in this room were confident that Russia 
and her neighbors would move quickly in the direction of democracy and 
freedom. Indeed, it was the people of these countries who did the most 
to stand up for these values and to give freedom a chance. But now 
unfortunately, Russia and her neighbors appear to be retreating from 
the kind of media freedom that democracy requires. And to the extent 
that happens, all of us, Russians and non-Russians, will be the losers.
    One Russian commentator summed up the situation we now face far 
better than I ever could. Speaking on independent Russian television, 
he noted that one of former Russian President Boris Yeltsin's first 
steps after the failed August 1991 putsch was to allow Radio Liberty to 
open a bureau in Moscow. One of Moscow's first steps under acting 
Russian President Vladimir Putin's administration, this reporter 
continued, was to arrest Andrei Babitsky, a Radio Liberty journalist.
    The way the Russian authorities have treated Andrei Babitsky and 
the way they and other governments are attacking media freedom across 
this region are very real cause for concern. But the remarks of this 
Russian commentator, along with the outpouring of support RFE/RL has 
received from ordinary Russians and from you and others around the 
world, give a basis for hope--as long as we who enjoy the advantages of 
media freedom and democracy don't give up the struggle to extend them 
across the world.
    a chronology of events surrounding the disappearance of rfeirl 
                     correspondent andrei babitsky
29 February 2000
  <bullet> Babitsky says he was beaten with a truncheon while being 
        held in a Russian detention camp in Chechnya.
  <bullet> A U.S. State Department spokesman says that Washington 
        continues to urge Moscow to conduct a ``full investigation'' 
        into the ``alleged exchange of a civilian journalist'' for 
        Russian prisoners of war in Chechnya.
28 February
  <bullet> An RFE/RL correspondent in Makhachkala reports that Babitsky 
        was put on a special flight from Daghestan to Moscow this 
        evening. Neither Babitsky's wife nor his attorney was informed 
        about this move in. advance.
  <bullet> Acting Russian President Vladimir Putin says he does not 
        believe there is any need to continue holding Babitsky. He says 
        that he believes that Babitsky was ``more than covering 
        information'' in Chechnya and that his job was to ``market a 
        certain type of product.''
  <bullet> Russian Interior Minister Vladimir Rushailo says that pro-
        Moscow Chechen leader Bislan Gantimirov had ``nothing to do'' 
        with the exchange of Babitsky for Russian prisoners in early 
        February and that ``Babitsky was kept by Chechen terrorists'' 
        after that time.
  <bullet> Ludmila Babitskaya meets with her husband in Makhachkala and 
        says that ``Thank God, I found Andrei alive and well, in 
        reasonably good condition.'' She says he has begun a hunger 
        strike because ``he doesn't agree with the decision to detain 
        him.''
  <bullet> Babitsky's lawyer, Aleksandr Zozulia, says that he will 
        challenge the decision or the Russian authorities to continue 
        detaining the RFE/RL correspondent. He notes that Babitsky is 
        in poor health and mentally exhausted.
27 February
  <bullet> Babitsky's lawyer Aleksandr Zozulya says that his client is 
        under arrest on charges of carrying a falsified passport. 
        Zozulya says that Babitsky had this passport ``forced upon 
        him.'' He adds that Babitsky has refused to sign the protocol 
        of charges against him.
  <bullet> Babitsky is no longer at the interior ministry press center 
        in Makhachkala. He is now at an interior ministry lockup in 
        that city.
  <bullet> Babitsky's wife Lyudmila arrives in Makhachkala but has not 
        been allowed to see her husband.
26 February
  <bullet> Babitsky tells RFE/RL correspondent Oleg Kusov that he had 
        agreed to be exchanged for Russian prisoners of war but changed 
        his mind when he saw that he was about to be handed over to 
        unknown masked men. Babitsky said this while still in detention 
        in the Daghestani capital of Makhachkala.
  <bullet> Babitsky is shown on Russian television being interrogated 
        by a Russian officer in Makhachkala.
25 February
  <bullet> Babitsky makes telephonic contact with his colleagues from a 
        Russian interior ministry detention center in Makhachkala, the 
        capital of Daghestan which neighbors Chechnya. Lyudmila 
        Babitskaya then telephones her husband from Prague. She reports 
        that he sounds well but is still under detention. He told her 
        that he hopes to see her in Moscow or Makhachkala on February 
        26.
  <bullet> Viktor Kozin, senior advisor to the Russian foreign 
        ministry's European Department, says in ``The Moscow Times'' 
        that RFE/RL alone should be held responsible for Babitsky's 
        fate and suggests that Moscow should consider whether RFE/RL 
        operations on Russian soil should be ended
24 February
  <bullet> The US Senate passes unanimously a resolution calling on 
        Moscow to provide information on the fate of Babitsky.
  <bullet> Alberto Mora, a member of the US Broadcasting Board of 
        Governors, proposes the establishment of a new RFE/RL broadcast 
        service to Chechnya.
  <bullet> Latvian Foreign Minister Indulis Berzins issues a statement 
        expressing concern about Babitsky's fate and noting that ``the 
        story of Andrei Babitsky is a plain message. What happened to 
        him could happen to any person who investigates what is really 
        happening in Chechnya.''
23 February
  <bullet> Acting Russian President Vladimir Putin tells visiting 
        British Foreign Secretary Robin Cook that Babitsky is alive and 
        in the hands of Chechen civilians. Cook says this is ``welcome 
        news, but we would also welcome direct contact.''
  <bullet> In a letter released to the press, Babitsky' s lawyers say 
        that the Russian authorities have not allowed them to review 
        written materials in the criminal case initiated against 
        Babitsky or explained why prosecutors continue to claim that 
        Babitsky has lost the right to counsel.
22 February
  <bullet> Nikolai Kovalyev, former Federal Security Service chief and 
        deputy chair of the Duma Security Committee, says that the 
        Babitsky case is ``absolutely incomprehensible,'' adding that 
        ``it raises a multitude of questions.'' He noted that the 
        reported exchange of Babitsky for Russian prisoners ``does not 
        fit into the framework of existing legislation.''
18 February
  <bullet> ``Komsomolskaya pravda'' carried a report that Babitsky is 
        alive and ``probably'' located in the Chechen village of Duba-
        Yurt with Chechen field commander Rizvan Chitigov.
  <bullet> US Undersecretary of State for Public Diplomacy Evelyn 
        Lieberman visits RFE/RL's Moscow Bureau ``to express once again 
        the United States government's serious concern about the fate 
        of Babitsky.''
  <bullet> Russian Press Minister Mikhail Lesin says that he is not in 
        favor of any limit or ban on RFE/RL broadcast to Russia. ``Ban 
        or not ban, they will listen anyway'' to that station, Lesin 
        adds.
  <bullet> Russian human rights activist and Duma deputy Sergei 
        Kovalyev says that Russian actions in Chechnya are ``close to a 
        genocide'' and that press freedom in Russia is increasingly at 
        risk.
  <bullet> The Russian PEN Club admits Babitsky as an honorary member.
17 February
  <bullet> State Department spokesman James Rubin cites the United 
        States' ``profound concern'' about the fate of RFE/RL 
        Correspondent Andrei Babitsky, whose condition and whereabouts 
        in Chechnya are still unknown. He also reiterates that 
        Secretary of State Madeleine Aibright made clear in recent 
        talks with acting President Vladimir Putin that Russia would be 
        held responsible for Babitsky's fate.
  <bullet> The U.S. State Department says Russia would be ``well 
        advised'' to provide the necessary accreditation to journalists 
        to report freely from Chechnya. Rubin says the U.S. regards it 
        as ``unacceptable'' to treat working journalists as if they 
        were prisoners of war.
  <bullet> International humanitarian organizations react with 
        scepticism to acting President Vladimir Putin's appointment of 
        an official to safeguard human rights in Chechnya. Amnesty 
        International says naming of Vladimir Kalamanov is unlikely to 
        result in ``investigations and prosecutions'' of Russian human 
        rights violations in Chechnya. Human Rights Watch says 
        allegations of torture and indiscriminate bombing by Russian 
        forces should be investigated as war crimes.
16 February
  <bullet> Russian journalists sound alarm over what they say is a 
        growing threat to press freedom following the disappearance of 
        Radio. Liberty reporter Andrei Babitsky in Chechnya. They made 
        their statement in a special black-and-white edition of the 
        Obshchaya Gazeta newspaper, only published when Russia's press 
        freedom appears endangered.
  <bullet> The Russian Interior Ministry says that ``no search for 
        Babitsky has been initiated.'' Such a search, the Ministry 
        says, will take place ``if the investigators issue an 
        appropriate warrant.. But we have not received any document of 
        this kind so far.''
  <bullet> Oleg Mironov, Russia's human rights commissioner, criticizes 
        the Russian government for turning over Babitsky to Chechen 
        rebels. ``We don't know'' where he is, Mironov says. ``The 
        situation with Babitsky causes bewilderment and indignation,'' 
        he says. ``It comes as a signal that the same thing may happen 
        to every reporter.''
  <bullet> Mary Robinson, the United Nations High Commissioner for 
        Human Rights, issues a statement noting that Babitsky's release 
        ``into the hands of people the Russian authorities consider 
        terrorists would be in contravention of the provisions'' of the 
        Geneva convention. She calls for increased monitoring of the 
        human rights situation in Chechnya.
15 February
  <bullet> Adrian Karatnycky, president of Freedom House, says that 
        Russia's treatment of Babitsky is ``a litmus test in the way 
        the Dreyfus case was in turn-of-the-century France--a major 
        case involving an individual which reveals all sorts of hidden 
        problems within the broader political system and society.''
  <bullet> Acting Russian President Vladimir Putin tells journalists 
        that Russian officials handling Babitsky's case are doing ``all 
        they can'' to ensure his safety. But Putin adds that from what 
        he knows, Babitsky already considers himself ``free.''
14 February
  <bullet> Lyudmila Babitskaya has filed a missing persons report about 
        her husband with the Moscow department of the Russian interior 
        ministry. She asks that the authorities investigate his 
        disappearance. The interior ministry officials accepted her 
        request.
  <bullet> The Glasnost Fund, a Russian human rights organization, says 
        it plans to file a complaint against Russian presidential 
        spokesman Sergei Yastrzhemsky over Babitsky's treatment.
13 February
  <bullet> Russian Interior Minister Vladimir Rushailo defends as 
        ``correct and justified'' a decision to trade Babitsky for two 
        Russian prisoners of war. Speaking on Russian television, 
        Rushailo says that Babitsky is still alive.
11 February
  <bullet> U.S. Senators Edward Kennedy, Patrick Leahy and Mitch 
        McConnell send a letter to acting Russian President Vladimir 
        Putin asking him to ``do all you can to ensure Mr. Babitsky is 
        safety.''
  <bullet> More than 2,000 people demonstrate in Moscow's Pushkin 
        Square to demand the release of Babitsky.
  <bullet> Moscow's ``Dos'e na tsenzuru'' launches an Internet appeal 
        for Babitsky's release.
10 February
  <bullet> Ambassador David Johnson, U.S. representative to the 
        Organization for Security and Cooperation in Europe, calls on 
        Moscow to reveal the truth about Babitsky.
  <bullet> Amnesty International issues another appeal to the Russian 
        government to ``immediately make public the whereabouts and 
        order the release'' of Babitsky
  <bullet> European Commission President Romano Prodi said that the 
        conmuission wants to send a mission to Chechnya to gather 
        information about missing RFE/RL journalist Andrei Babitsky. 
        The EU commissioner for enlargement, Guenter Verheugen, said 
        the commission supports the demands of the OSCE that acting 
        Russian President Vladimir Putin disclose Babitsky's 
        whereabouts.
  <bullet> Bislan Gantemirov, the head of a pro-Moscow Chechen militia, 
        said his group is not involved in the detention or 
        disappearance of Andrei Babitsky, saying such reports are ``a 
        total invention.''
  <bullet> The U.S. State Department demanded a full and candid 
        accounting from Russia about the fate of missing correspondent 
        Andrei Babitsky. Russian officials claim Babitsky is alive and 
        well but they have offered no proof. In another development, at 
        least 20 members of the U.S. Congress demanded Babitsky's 
        release in a letter to acting Russian President Vladimir Putin.
9 February
  <bullet> Russian television broadcasts a second video showing 
        Babitsky who is heard saying that it is February 6 and that he 
        wants to go home. The clip provides no information about his 
        exact whereabouts. Meanwhile, a former spokesman for Chechen 
        President Aslan Maskhadov says that Chechens are holding 
        Babitsky, an assertion Maskhadov's current spokesman reiterates 
        is not true.
  <bullet> Reporters sans Frontiers again appeals to ``all actors in 
        the Chechen conflict to guarantee the safety of journalist 
        Andrei Babitsky.''
  <bullet> State Duma today voted down a proposal to summon the 
        Interior Minister (Vladimir Rushailo) and the acting Prosecutor 
        General (Vladimir Ustinov) to discuss the Babitsky case.
  <bullet> The Brussels-based International Federation of Journalists 
        has faxed an open letter to acting Russian President Vladimir 
        Putin saying Babitsky's alleged exchange for POWs is 
        unacceptable and a violation of the Geneva Conventions.
8 February
  <bullet> RFE/RL Moscow bureau purchases a video tape late at night 
        from an unidentified man that shows Babitsky expressing wish to 
        go home. In it, he says the recording was made on Sunday, 
        February 6. That is after he was purportedly turned over to the 
        Chechens in exchange for two Russian soldiers.
  <bullet> The Organization for Security and Cooperation in Europe 
        demands that Russia give proof by tomorrow that Babitsky is 
        alive.
  <bullet> The Foreign Correspondents' Association in Moscow calls for 
        Babitsky's release, describing his treatment at the hands of 
        the Russian authorities as ``a gross violation of human 
        rights'' and a clear threat to all journalists working in 
        Russia.
7 February
  <bullet> US Secretary of State Madeleine Albright says that the 
        United States is ``very unhappy'' over the Babitsky case and 
        that it ``holds the Russians responsible for what happens to 
        him.''
  <bullet> The International Federation of Journalists called on the 
        Russian government to ``come clean'' on the fate of Babitsky 
        and noted in its statement that there were serious problems 
        with the film clip Russian officials released that purports to 
        show Babitsky being handed over to the Chechens.
  <bullet> Russian Federal Security Services chief Nikolai Patrushev 
        said Babitsky is ``alive'' but that he does not know where 
        Babitsky is staying. ``That is not our business.''
  <bullet> Sergei Prokopov, a spokesman for the office of the Russian 
        prosecutor general said that a summons had been issued for 
        Babitsky to appear and answer questions about new evidence in 
        his case.
6 February
  <bullet> John Podesta, White House chief of staff, said that the 
        United States was ``very concerned'' about Babitsky's fate. 
        ``We have made our view known to the Russian government; we've 
        pressed them on this issue.''
5 February
  <bullet> Russian human rights activist Yelena Bonner issues a public 
        appeal to the Parliamentary Assembly of the Council of Europe 
        (PACE) asking it to meet in extraordinary session to discuss 
        the Babitsky case.
  <bullet> Chechen President Asian Maskhadov tells RFEIRL in a 
        telephone interview that his government has no information 
        about the fate of Andrei Babitsky.
4 February
  <bullet> Ludmila Babitskaya says that she has not heard from her 
        husband for more than 24 hours after the Russian authorities 
        said they released him or alternatively said they handed him 
        over to Chechen forces in exchange for Russian prisoners of 
        war.
  <bullet> Chechen Foreign Minister Ilias Akhmadov says that no 
        exchange of Russian prisoners of war for Babitsky took place 
        and that the Chechen leadership has no news of Babitsky's 
        whereabouts.
  <bullet> Russian General Valery Manilov says at a press conference 
        that ``everything would be all right or even good, and maybe we 
        could even speak of gratitude [to Babitsky] and even of an 
        award, if it weren't for the shady side of the question--
        Andrei's efforts to return to the embrace of the bandit 
        formations and to be with them.''
  <bullet> Members of the U.S. House of Representatives, Broadcasting 
        Board of Governors Chairman Marc Nathanson, and the World Press 
        Freedom Committee add their names to the growing list of 
        individuals and groups calling on the Russian government to 
        provide information about the fate of Andrei Babitsky.
3 February
  <bullet> Russian news agency APN Novosti accuses Babitsky of 
        ``intimate relations'' with a Chechen field commander.
  <bullet> Russian Presidential spokesman Sergei Yastrzhembsky says 
        that Russian officials have exchanged Babitsky for three 
        Russian prisoners of war. Later Yastrzhembsky says that a film 
        of the incident is making its way to Moscow.
  <bullet> RFE/RL issues a press release condemning this reported 
        exchange.
  <bullet> US State Department spokesman James Foley says that if these 
        reports prove to be true, it ``would raise very serious 
        questions'' about Moscow's commitments to the rule of law.
  <bullet> Vladimir Ustinov, acting Russian prosecutor general, says 
        Babitsky was exchanged, then changes his story and says 
        Babitsky was released and went over to the Chechens.
2 February
  <bullet> Committee to Protect Journalists expresses alarm at 
        Babitsky's detention and concern about his current condition.
  <bullet> Russian forces detain London Times bureau chief in Chechnya.
  <bullet> Acting Russian Prosecutor General Vladimir Ustinov travels 
        to Chechnya to probe the Babitsky case.
  <bullet> Moscow's Rublev Museum contacted by prosecutors to evaluate 
        icon reportedly in the possession of Babitsky at the time of 
        his arrest.
  <bullet> Moscow officials said that Babitsky would be transferred 
        from Naursky district to Gudermes and then to Moscow. Once in 
        Moscow, these officials said, he would be released on his own 
        recognizance.
1 February
  <bullet> Ryazan committee to defend Babitsky issues an appeal on 
        Babitsky's behalf. Other organizations across the Russian 
        Federation issue similar statements.
31 January
  <bullet> US Senators Jesse Helms and Joseph Biden send a letter to 
        acting Russian President Vladimir Putin calling for Babitsky's 
        release.
  <bullet> Reporters sans Frontiers calls on Russian Federation justice 
        minister to explain the Babitsky case.
  <bullet> US Secretary of State Madeleine Albright says that she 
        discussed Babitsky case with Russian Foreign Minister Igor 
        Ivanov.
  <bullet> RFE/RL issues a press release saying that Moscow is dragging 
        its heels on releasing Babitsky and thus raising questions 
        about his physical well-being.
  <bullet> Andrei Korotkov, chief of the Russian government's 
        information department, says in Davos that he hopes Babitsky 
        will be released. He blames Babitsky's detention on local 
        officials and says Moscow was not involved.
  <bullet> Russian Presidential spokesman Sergei Yastrzhembsky says 
        that Babitsky is being held in pretrial detention in Chechnya's 
        Naursky district.
30 January
  <bullet> Evgeniy Kiselev says on NTV's Itogi program that one of 
        former Russian president Boris Yeltsin's first acts after the 
        August 1991 coup was to give RFE/RL permission to open a bureau 
        in Moscow while one of current acting Russian president 
        Vladimir Putin's first actions was to arrest an RFEIRL 
        correspondent.
  <bullet> Prosecutors call Ludmila Babitskaya in Moscow to say that 
        her husband is alive and well in the Naursky district of 
        Chechnya.
29 January
  <bullet> Yuri Biryukov, head of the main department for the North 
        Caucasus of the Russian Federation prosecutor general's office, 
        goes to Chechnya on acting President Vladimir Putin's behalf to 
        clarify the case of Babitsky.
  <bullet> Presidential spokesman Sergei Yastrzhembsky says that he 
        first learned of Babitsky's arrest from a news story on 28 
        January. ``Before that moment, nobody knew Babitsky's 
        whereabouts.''
  <bullet> ITAR-Tass reports former RFE/RL staffer Vladimir 
        Matusevich's statement that the entire Babitsky story was ``a 
        fabrication'' by RFE/RL to attract attention and keep the 
        station in operation.
28 January
  <bullet> Russian media officials tell RFEIRL that Babitsky will be 
        released with apologies.
  <bullet> Russian Federation Interior Ministry spokesman Oleg Aksyonov 
        says that Babitsky had been arrested on 23 January for lacking 
        accreditation.
  <bullet> Russian security officials told Interfax that Babitsky had 
        been charged with participating in ``an illegal armed 
        formation'' under the terms of Article 208, par. 2 of the 
        Russian criminal code.
27 January
  <bullet> OSCE Representative on Freedom of the Media Freimut Duve 
        sends a letter to Russian Foreign Minister Igor Ivanov on 
        behalf of Babitsky.
  <bullet> US State Department spokesman Jamie Rubin notes Babitsky's 
        disappearance, expresses ``concern,'' but notes that reporters 
        had been warned of the dangers of going into an area where 
        military actions were taking place.
  <bullet> Babitsky reported by RFE/RL reporters to be in detention in 
        Urus-Martan
  <bullet> Wire services break story that Babitsky is missing.
  <bullet> Babitsky reportedly formally charged on this date.
26 January
  <bullet> Russian Presidential spokesman Sergei Yastrzhembsky says 
        that Babitsky ``left Grozny and then disappeared. As far as we 
        are concerned, his security is not guaranteed.''
  <bullet> Russian security services say they, have no information on 
        Babitsky's whereabouts.
  <bullet> Russian Union of Journalists issues an appeal for Babitsky's 
        release.
  <bullet> Ludmila Babitskaya says she believes her husband is in the 
        hands of the Russian authorities.
25 January
  <bullet> RFE/RL receives reports that Babitsky has been detained.
24 January
  <bullet> Russian officials return photographs they had confiscated to 
        Ludmila Babitskaya.
18 January
  <bullet> Babitsky reportedly detained. Other reports suggest he was 
        detained on 16 or 17 January. But later reports say he was not 
        formally arrested until 27 January.
15 January
  <bullet> RFE/RL has last telephone contact with Babitsky.
13 January
  <bullet> Babitsky files report on heavy Russian bombing of Grozny.
8 January
  <bullet> Russian security agents raid Babitsky apartment in Moscow 
        and confiscate several items. Earlier, Ludmila Babitskaya is 
        called to militia station after she tries to pick up 
        photographs that had been developed.
29 December 1999

  <bullet> Russian forces detain seven international journalists near 
        Grozny in Chechnya.
27 December
  <bullet> Russian Information Committee in Chechnya accuses Babitsky 
        of ``conspiracy with Chechen rebels'' after Babitsky broadcast 
        a story the day before on Russian military actions there that 
        the RIC found objectionable.

    The Chairman. Thank you. First, I want to get Andrei 
Babitsky here to testify before this committee, and I have an 
idea that these gentlemen with the television will not be the 
only ones here to cover that.
    Mr. Dine. I wish I could produce him right now, but he went 
from the press conference to the hospital, so he can have a 
thorough medical examination--
    The Chairman. Right.
    Mr. Dine. --which I personally have ordered that--
    The Chairman. We can take him any time we can get him.
    Mr. Dine. I will do what I can to get him here as soon as 
possible.
    The Chairman. Thank you. Secondly, I am instructing, 
respectfully, the staff for the majority on this committee, and 
I know that they will be joined enthusiastically by the 
minority, or the Democrat, I want an updated resolution 
prepared to be presented to the Senate and to be voted on, and 
I want it to be complete, with as much information as you can 
work out from testimony here today.
    I would like that to happen as quickly as possible, and I 
know you will do that.
    Thirdly, I want to get a transcript of what each of you has 
said this morning, and I think we ought to use that every time 
the Senate has a quorum call, but no business to conduct. I 
think we ought to read part of the testimony. We would do that 
with careful selection, of course, and so we will begin on 
that.
    Now, let me ask some quick questions. Most of them are 
answerable. I was going to ask you about Babitsky, the question 
of who held him, the Russians, the pro-Russian Chechnya group, 
or the Chechnya resistance, and I know the answer to that.
    How would you assess the Clinton Administration's efforts 
to ensure the safety and release of Andrei Babitsky?
    Mr. Dine. From the beginning we tried to keep the U.S. 
embassy in Moscow informed, as well as the embassy in Prague. 
Almost everyday I was on the phone to our ambassador in Prague, 
John Shattuck, who is very helpful keen on human rights issues. 
We welcomed those times that the administration met Russian 
officials and spoke out about the regression taking place in 
that society and by the Putin administration.
    There were times when I urged more, and I am not bashful, 
as you know, and I have said that several ways and in several 
phrases. But overall, the good news is, the man was found and 
is nearly free. I do report to you, sir, that your letter of 
the 31st of January, the two Senate resolutions that passed on 
the 24th of February, had an impact in Moscow.
    I am the only one on our Prague staff who has had 
experience on Capitol Hill; and I tried to tell them that this 
is a co-equal branch of government, and take every word 
seriously.
    The Chairman. Good.
    Mr. Dine. So those were shots in the arm, if you would 
like. I've switched my medical words, because I had said 
earlier it was a shot to the bow of Russia's policymakers, but 
in our bureau in Moscow, in our Prague headquarters, this was 
seen as real encouragement--
    The Chairman. Good.
    Mr. Dine. --and it counts. It counts.
    The Chairman. I want Mr. Bouckaert to comment on that same 
question.
    Mr. Bouckaert. Well, I am not as familiar with specific 
actions that the U.S. government took in the case of Mr. 
Babitsky, but I do think that in terms of the more general 
abuses in Chechnya the administration should know that the 
Russian media pays a lot of attention to what the U.S. says, 
and when Ms. Albright was in Moscow, and when Clinton spoke out 
here about the abuses in Chechnya, about their general 
relationship with the Russian government, it would certainly 
seem as an endorsement for the Russian government, or for Mr. 
Putin in particular.
    The administration has to be careful about what it says, 
because oftentimes their comments get interpreted as support, 
not just for Mr. Putin, but also for this war in Chechnya, and 
the fact that they have not spoken out stronger makes that an 
easy message to pass on.
    The Chairman. By the way, let us do seven minutes, and 
then, of course, set it for--so I will not overrun the seven 
minutes. Ms. AbuZayd, your comments on that.
    Ms. AbuZayd. Well, from the humanitarian side, I have to 
say that we have very good support from the U.S. government, 
both in terms of the things that they give us for our program, 
but also the pressure that they put on the Russian government 
for us to have access in Ingushetia and inside Chechnya.
    That being said, I think we should acknowledge that this is 
often the easier part, and something that we have to go beyond, 
because we often feel, as the humanitarian actors, we are put 
out in front to say we are doing something, salving the 
conscience of people who want to do something, so that they do 
not have to attack the real political problems and the real 
root causes of the problem.
    So we very much appreciate what we are able to do, but it 
is not enough. It is addressing the symptoms, and the other 
actors have to be there to solve the other problems.
    The Chairman. Mr. Bouckaert, do you think the United States 
government has adequately addressed the need to stop the 
indiscriminate killing and atrocities in Chechnya?
    Mr. Bouckaert. That is an easy question. No, I do not think 
they have. They mince their words oftentimes when they talk 
about abuses, they talk about abuses by both sides, suggesting 
that this is kind of a very cruel conflict, but the fact is 
that the vast amount of abuses in this war have been committed 
by Russian forces.
    The U.S. government has not spoken out strongly enough 
about the abuses in this war, and it certainly has not taken 
the actions needed, the actions it can afford to take to stop 
these abuses.
    Mr. Dine. Mr. Chairman, can I just add one more thing to 
that?
    The Chairman. Sure. Sure.
    Mr. Dine. There is an assumption in this city that during 
the first Chechen war and during this one, that somehow or 
another Yeltsin, and now Putin, was what Lincoln was during our 
particular civil conflict. This has nothing to do with South 
Carolina or nothing to do with our Civil War. This is an 
uncivil war.
    I just want to reinforce what these two have said today. We 
are dealing with the most venal of behavior that we have seen 
in a long, long time, and it has to be addressed in those 
terms, and those terms only.
    The Chairman. Right. Now, I want to ask you, how many 
civilians do you think have been killed in the conflict over 
there?
    Mr. Bouckaert. Well, that is a very difficult question to 
answer, because the human rights watch is not allowed to go 
into Chechnya, and neither are international journalists.
    We know that the Russian government has understated the 
number of civilians as well as the number of Russian soldiers 
killed, but it is certain that the number of Russian soldiers 
killed is somewhere in the region of 3,000, and I would imagine 
that the number of civilians killed is at least--
    The Chairman. How about resistance, how many have they 
killed?
    Mr. Bouckaert. I think that the number of Chechen fighters 
killed is probably smaller. We have not documented any large-
scale killings by the Chechen fighters, but we have documented 
many other abuses committed by them.
    The Chairman. Do you think the Russian commanders are 
involved to whatever extent, or any extent, in the atrocities 
that have been documented thus far?
    Mr. Bouckaert. I have interviewed many people who informed 
the Russian generals of ongoing abuses, including ongoing 
killings, and we have no evidence that those Russian generals 
took any steps to stop those killings. At the very least, their 
failure to act in the face of these vast abuses in Chechnya 
makes them complicit in the abuses.
    In terms of the bombings that are taking place, the 
indiscriminate and disproportionate bombings, that certainly is 
a decision made by the military command.
    The Chairman. Well, how about your investigation, has there 
been any interference with those investigations?
    Mr. Bouckaert. Well, we have to be very careful about our 
security. We are not allowed to go into Chechnya itself. We are 
denied access to Chechnya by the Ministry of Defense, and in 
the face of what happened to Babitsky, we have to be very 
careful.
    My Russian colleague has repeatedly been interrogated by 
the FSB, the intelligence service of the Russian government.
    The Chairman. Have you folks looked into these so-called 
filtration camps? Have you been granted access to any of them?
    Mr. Bouckaert. No, we have not been granted access. I 
interviewed a significant number of people independently from 
each other about the filtration camps, and we know that there 
is well over a thousand men in those filtration camps now that 
have suffered severe beatings, torture, and we have documented 
several cases of rape from independent witnesses who have given 
us the identify of the people who were raped in those camps.
    There was a visit arranged a few days ago for journalists 
to one of the filtration camps. We have strong evidence to 
suggest that that filtration camp was cleaned up for the visit, 
and it was newly repainted, and just a few carefully selected 
prisoners were paraded in front of these journalists, and 
clearly told what to say.
    The Chairman. How about prisoners of war, what has happened 
to them?
    Mr. Bouckaert. It is very unclear what has happened to 
prisoners of war. We have evidence that Chechen fighters have 
executed Russian soldiers during this campaign, but there 
certainly are a large number of men, both prisoners of war, as 
well as civilians, who are unaccounted for to date.
    The Chairman. My time has expired. We started late, so I am 
not going to spend any more time on mine.
    The Senator from Minnesota.
    Senator Wellstone. I will defer to the Senator from 
Wisconsin, because I had to go to a markup in another 
committee. I apologize. Then I will follow Senator Feingold. 
Thank you.
    Senator Feingold. I thank the Senator from Minnesota.
    The Chairman. You have seven minutes.
    Senator Feingold. Yes, sir. I will not even use all of it, 
Mr. Chairman.
    Mr. Bouckaert, we all read reports indicating that the 
campaign in Chechnya is extremely popular in Russia. Apart from 
the journalists Mr. Dine was talking about, have any prominent 
Russian figures, policymakers, intellectuals, non-government 
activists condemned the violence in Chechnya and the abuses 
occurring there? What sort of picture of that can you give me?
    Mr. Bouckaert. Well, there are two NGOs which we work 
closely with, the one is Memor Yau, who is a Russian human 
rights NGO; the other one is the Committee of Soldiers' 
Mothers, and they have both spoken very strongly about these 
abuses in Chechnya, and about the conduct of the war in 
general.
    Unfortunately, most of the Russian media has given a very 
slanted presentation of this war. They have barely documented 
the kind of abuses that are taking place in the war, and they 
only contact us when we talk about abuses by Chechen fighters. 
There is a lot of public support in Russia for this war, partly 
because the abuses are not being discussed.
    Senator Feingold. What about prominent artists, writers, or 
intellectuals?
    Mr. Bouckaert. I have been in Ingushetia for the last three 
months, so I have had limited access to the media there. I will 
pass that question on.
    Mr. Dine. During the Babitsky saga, Elena Bonner, the 
famous human rights activist and outspoken human rights leader, 
spoke out, and she also nominated Babitsky for awards for his 
war correspondence journalism.
    Certainly, the democrat, Mr. Yavlinsky has also spoken out, 
but I think fewer and fewer people are listening to him, and 
that is part of the problem. So yes, the mainstream is 
definitely in line, highly approving Putin policies in 
Chechnya.
    Senator Feingold. For any of you, how credible is the 
investigation into abuses in Chechnya as being conducted by 
President Putin's representative? Is it adequately staffed by 
human rights professionals?
    Mr. Dine. I have asked the same question, Senator, and 
everybody tells me that he is just for show.
    Senator Feingold. Mr. Bouckaert.
    Mr. Bouckaert. I think that we should realize that there 
are stretchers in place in the Russian government who are 
supposed to address these abuses, such as the military 
procurator. They have taken no action to investigate the war 
crimes committed in Chechnya, so we are quite skeptical about 
this new appointment.
    Regardless of what the new appointment does, I think it is 
important that an independent international monitoring presence 
is established, and that these abuses are investigated at the 
international level. The international community must monitor 
what the Russian authorities are doing, in terms of 
investigating these abuses, but they also have to establish the 
body of evidence to make sure that these people are held 
accountable for their abuses in Chechnya.
    Senator Feingold. Ms. AbuZayd, did you want to respond?
    Ms. AbuZayd. I would just add, as I mentioned in my 
statement, that we have had dealings with the new appointee, 
who is the director of the Federal Migration Service, which is 
our main interlocutor in Russia, and we are hopeful that he 
might do some of the right things, if, as you say, he gets an 
adequate staff, and the independents still need to be added to 
this whole process, as Mr. Bouckaert said.
    Senator Feingold. Thank you all for your testimony, as the 
Chairman said. Thank you, Mr. Chairman.
    Senator Wellstone. Thank you, Mr. Chairman. Again, I want 
to thank you for your leadership. We were just talking to one 
another, and I really want to work with you in drafting another 
resolution, and raising the temperature here, and really 
putting the focus on this.
    I think we can do that together with many other Senators, 
Senator Biden, and I hope the whole committee.
    I am going to use first names as well. Peter, I just think 
you do heroic work.
    Mr. Bouckaert. Thank you.
    Senator Wellstone. I admire the work that you do. You may 
have said this, but I want to make sure that I understand it, 
or that it is repeated again: has the infrastructure--homes, 
schools, hospitals--in Chechnya been specifically targeted?
    Mr. Bouckaert. Yes. We have documented several attacks on 
hospitals. I remember driving through one town in Chechnya, and 
the two buildings that were the most destroyed, were the school 
and the mosque in the one town. There has been a tremendous 
destruction of the infrastructure in general, but it seems that 
schools, mosques, and hospitals were specifically targeted on 
numerous occasions.
    Senator Wellstone. How difficult is it to collect the 
evidence and is some of the evidence destroyed?
    Mr. Bouckaert. Certainly, we are concerned that evidence of 
war crimes in Grozny is being destroyed at the moment. The city 
has been completely shut off from the local residents, as well 
as from the international community.
    We have been told by witnesses that they have been 
specifically told not to talk to the international community 
about war crimes, and because of our lack of access, evidence 
has been destroyed just because it deteriorates, and it is 
buried in many cases.
    Senator Wellstone. Karen, how important is it to get human 
rights monitors into the area around Chechnya, and is the 
Russian military capable of investigating itself?
    Ms. AbuZayd. I do not know about the capability of the 
Russian military. I would say that we need, as Peter has said, 
independent people looking at this. We have put human rights 
monitors in, we hope. We hope that the UN High Commissioner for 
Human Rights will now take this on as well, and try to get to 
these people.
    Just to say, though, even with our work, with our 
humanitarian work, we are truly well escorted at all times, and 
there are places we never are shown--
    Senator Wellstone. Because you need to be escorted for your 
own security and safety.
    Ms. AbuZayd. We have asked for that ourselves, but we are 
not sure, even in Ingushetia, that we really have reached all 
the people there, because our movements are controlled.
    Senator Wellstone. In other words, you have depended on the 
military, because you cannot go in without them, but on the 
other hand, by going in with them--
    Ms. AbuZayd. Yes.
    Senator Wellstone. --it puts some restriction on where you 
go.
    Ms. AbuZayd. Yes.
    Senator Wellstone. And then finally, Tom, with the fall of 
Shatoi yesterday, the Russians claim that the Chechens have 
been defeated. Do you think that is true, or do you think the 
Chechens have the capacity for effective guerilla war? In other 
words, do you think this war is going to continue?
    Mr. Dine. I think this is an endless war, as history shows. 
The Russian-Chechen conflict has been going on for 400 years or 
so. It took on great intensity with Peter the Great in the 
early part of the 18th century. There was a general in 1818, 
Senator, who wrote a letter to the czar and said he would not 
be at peace until every Chechen was killed. That policy has 
basically continued up to the present.
    Mr. Bouckaert. If I could just add to that. It has been a 
consistent policy strategy by the Russian government to suggest 
that this war will soon be over, because they are trying to 
limit international criticism of their mopping-up operation.
    After they announced again that they killed the rebel 
commander Raduyev, there was a headline in the Russian 
newspaper saying, ``Russia Kills Raduyev Again,'' because they 
have claimed three times now that they have killed him. I think 
that is just one more example of you laugh or you cry. We are 
laughing, but--.
    I think it is important to understand that the brutal 
campaign of the Russian government in Chechnya has led to a 
radicalization of the opposition. It is much more difficult to 
bring people back to the table, and there certainly are enough 
fighters left to continue this war for a long time.
    The international community needs to keep its attention. We 
cannot just say this war is going to be over soon, let us just 
wait a few more months.
    Senator Wellstone. Well, I want to thank each of you. I 
have such respect for your work. Mr. Chairman, I think it was 
Camus who once said murder is never legitimate.
    So I do not defend the actions of all of the Chechens and 
what has been done, but given now what we now see, this is just 
a--a human rights question is too mild of a way of putting it. 
I mean this is really a systematic slaughter and murder of 
people, and I think it is very important that the Senate depict 
a profile on this in a major way. Thank you.
    The Chairman. Next is Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. I apologize for 
being so late. This is obviously a very important hearing. 
Unfortunately, we all have more than one duty, and I am on the 
judiciary committee, and there is a major crime bill that I 
have introduced. I was asked to speak to the National Sheriff's 
Association downtown, and I committed to do that, and I 
apologize for being late.
    My staff briefly has told me almost all the questions I 
would want to ask, and your testimony was graphic and 
compelling. I have two questions, one of which may not have 
been asked, I hope. If it has, just tell me, and I will 
literally read it in the record. I do not want to trespass too 
much more on your time.
    Is there anything that, from a broad policy perspective, 
the next United States president should read from Putin's 
pursuit of the war in Chechnya, and does it have implications, 
if you are prepared to speak to it, for how Russia will deal 
with other parts of what is still the territory of Russia and 
former republics of the Soviet Union, where the Islamic faith 
predominates?
    Tell me a little bit about how much of this relates to the 
attitude of Putin, in your view, and the Russian military, 
towards Islam. I find an incredible dichotomy between the way 
in which the Russian agencies, and possibly the Kremlin itself, 
will promote and deal with Iran in terms of missiles and 
missile technology, and yet deal so brutally with Chechnya. I 
do think you are dead right, though, Tom, that these old wounds 
run centuries deep.
    But is it just that? Is there something unique about 
Chechnya alone, or is there something more that relates to the 
present Russian leadership's attitude toward Islam? Is that a 
fair question?
    Mr. Dine. I will try to address what you have just said. I 
like the way you addressed the question, so it allows us to 
talk about the future.
    First of all, I do not think the United States policy 
should be fitted for just one set of issues. They are 
complicated issues, such as the future of the ABM Treaty.
    I think we have to have a comprehensive policy toward 
Russia. A comprehensive policy is not just political-military 
issues, but the very issues we have been discussing here today. 
As Senator Wellstone just said, we need to start with human 
rights.
    These are issues that are critical to us. If we do not 
address basic values, then who are we? That is what has been so 
important for all of us at Radio Free Europe/Radio Liberty.
    The issue is not just Babitsky the human being, and a 
colleague, and a father, and a husband, but it is freedom of 
the press, and the freedoms that go with the freedom of the 
press, and it's the future of a relationship of a nation that 
wants to, as I said earlier Senator Biden, not to deal with the 
future, that wants to go back to the past. I urge you to think 
of these things comprehensively.
    One other thought. Tolstoy wrote a short story in 1842 
about the Chechen war at that time entitled ``Haji Marat.'' 
Today's war and cruelties are summarized there. There is an 
intensity in Moscow for Chechens that is not seen towards 
Uzbeks, Tajiks, or Georgians. There is something about the 
Russian-Chechen relationship that is offbalance, that brings 
out the worst in human behavior.
    Senator Biden. Do you all agree with that?
    Mr. Bouckaert. Well, I think there is some anti-Islamic 
element to this war, but I think there is a lot more about the 
new willingness by Russia to use abusive powerful military 
options. I am concerned about the rights of this new 
nationalism in Russia, which has come along with Putin in this 
war.
    Russia feels like a small world power now that wants to 
regain its role in the world stage, and I hear a lot of people 
saying in Moscow when I am there that we need a strong leader 
like Putin to regain our place on the world stage, and suddenly 
it is not just Chechnya, and Ingushetia, and the other Islamic 
republics in the region who are concerned about this, but 
Georgia, a Christian country, which is certainly as much 
concerned about the new assertiveness and militarialism in 
Russia.
    Senator Biden. Thank you. Karen?
    Ms. AbuZayd. Yes. This is outside my humanitarian scope, 
your question, but I certainly would say that Islam is not the 
main feature of the problem, and that we all have to watch our 
governments on satanizing Islam.
    I think even when Peter spoke about the Chechen fighters, 
the ones he was saying were the worst were the Muslim Chechens. 
Well, they are all Islam Chechens. So it is something we all 
need to be aware of.
    Mr. Dine. There is an issue that we discussed internally at 
Radio Free Europe/Radio Liberty about what does this mean for 
Russia's near abroad policy. Russia's neighbors do have doubts 
about Putin's foreign policy thinking. It was graphically 
summarized by one of our Central Asian service directors, when 
he said, ``There is a new man in power. We can saw it at the 
CIS gathering in early January in Moscow that if Putin wears a 
striped tie today, then all the other leaders of the near 
abroad countries will wear a striped tie.
    There is caution and deep-seated fear about Russian power 
creating a new sphere of influence over them.
    So as I said, human rights is part of our policy approach, 
so are missiles and arms sales, and how Russia behaves toward 
its neighbors.
    Senator Biden. Mr. Chairman, if I could take 30 more 
seconds.
    The Chairman. Sure. Sure.
    Senator Biden. Let me tell you the one part that I worry 
about in terms of the Administration's policy. I am not asking 
you to comment. I think the way in which, my observation, the 
State Department handled the dramatization of the capture and 
the disappearance of the press representative was wrong.
    I think they were so worried about affecting other aspects 
of the relationship that are being negotiated now, that they 
tip-toed around what they should have done.
    I will not be overly specific here, but literally, in terms 
of not letting press in the country know until ten minutes 
before that they are going to be on. I mean that is malarkey.
    But I have seen that sort of thing in every administration, 
and everybody gets clientized in this process, and their little 
piece is the piece that they want to make sure does not get 
rolled, and if there is something else important, they are 
afraid to act.
    I think we have to have a franker relationship with Russia. 
I predict to you, for what it is worth, my predictions are 
usually wrong, but I predict to you that Putin is going to 
cooperate with us more on the big ticket items, but he is going 
to become more oppressive and anti-democratic as he moves on.
    We are going to be faced with sort of a China dilemma here, 
in a broad sense, where you going to have a circumstance where 
the Chinese are cooperating with us on trade, there is 
liberalization, there are a lot of things that make sense for 
us, and at the same time they are still cracking down on the 
free press, they are cracking down on any dissidents.
    I think the next president is going to be faced with an 
interesting dilemma here. You may very well get cooperation on 
nuclear weapons, while at the same time they are crushing 
democratic movements in other places, or limiting what is 
thought to be, by the West, democratic institutions.
    I think we are in for an interesting ride here, but I think 
the controlling feature of it, Tom, should be frankness. I do 
not mean demagoging, I mean just frankness, frank confrontation 
on the places we don't agree.
    Where I might or might not disagree with the other two 
witnesses, I didn't hear your testimony, so I do not know, is I 
do not think that the way to respond is to cut off all other 
intercourse with Russia on, for example, START II. I am not 
suggesting you said that. I am just trying to make the point 
that we should be frank.
    Let me conclude by--Dr. Haltzel, who is one of the main 
reasons I love having him on my staff, he is so knowledgeable 
about history, he passed me the following note. ``On the other 
hand, the 19th century writer Lermontov romanticized the people 
in the Caucasus.''
    So it is nice to have, well, I always kid him, my double 
PhD behind me here. He does not really have two PhD's, but he 
has the drawback of having gone to Harvard and Yale, and it 
worries me, but it is one of these things. So I am going to 
have to read both to find out where the truth lies.
    Anyway, thank you very much, Mr. Chairman, and thank you 
for the good work you are doing, and for not relenting on--
    The Chairman. We all feel that way about it. It has been a 
stimulating morning, and it has given us some guideposts about 
what we should do further in the Senate.
    This is one time that I am very proud of the Senate for its 
having undertaken this. We have not gone far enough, but if I 
have anything to do with it, we will go much farther.
    Senator Biden. Mr. Chairman, may I ask that my statement be 
placed in the record?
    The Chairman. You bet.
    Senator Biden. Thank you.
    The Chairman. Without objection, it certainly will be.
    [An statement by Senator Biden appears in the Appendix.]
    The Chairman. The Senators who had to go to other committee 
meetings and were not able to be here may want to file some 
questions in writing, and I know you-all will accommodate them 
to the best of your ability.
    If there will be no further business, I thank you very, 
very much. Have a good day. We stand in recess.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              



        An Additional Statement for the Record by Senator Biden

    At the time of the hearing on March 1, 2000, I was unaware of 
certain actions that the Department of State had taken with regard to 
the detention of Mr. Babitsky.
    In fact, Secretary Albright, Undersecretaries Pickering, Lieberman, 
and U.S. Ambassador to Russia Collins had repeatedly approached the 
Russian Government, urging in the strongest terms that Mr. Babitsky be 
freed.
    In addition, Undersecretary of State Lieberman had visited the 
Moscow office of Radio Liberty, had met with Mrs. Babitsky, and had 
subsequently made a strong statement to the press.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  Maps
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                    
      

</pre></body></html>
